<html>
<title> - TECHNOLOGIES TRANSFORMING TRANSPORTATION: IS THE GOVERNMENT KEEPING UP?</title>
<body><pre>[Senate Hearing 114-250]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 114-250

                       TECHNOLOGIES TRANSFORMING
                         TRANSPORTATION: IS THE
                         GOVERNMENT KEEPING UP?

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON SURFACE TRANSPORTATION
                  AND MERCHANT MARINE INFRASTRUCTURE,
                          SAFETY AND SECURITY

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              JULY 7, 2015

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                         U.S. GOVERNMENT PUBLISHING OFFICE 

99-958 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001

















       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
MARCO RUBIO, Florida                 CLAIRE McCASKILL, Missouri
KELLY AYOTTE, New Hampshire          AMY KLOBUCHAR, Minnesota
TED CRUZ, Texas                      RICHARD BLUMENTHAL, Connecticut
DEB FISCHER, Nebraska                BRIAN SCHATZ, Hawaii
JERRY MORAN, Kansas                  EDWARD MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 CORY BOOKER, New Jersey
RON JOHNSON, Wisconsin               TOM UDALL, New Mexico
DEAN HELLER, Nevada                  JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               GARY PETERS, Michigan
STEVE DAINES, Montana
                    David Schwietert, Staff Director
                   Nick Rossi, Deputy Staff Director
                    Rebecca Seidel, General Counsel
                 Jason Van Beek, Deputy General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
       Clint Odom, Democratic General Counsel and Policy Director
                                 ------                                

      SUBCOMMITTEE ON SURFACE TRANSPORTATION AND MERCHANT MARINE 
                  INFRASTRUCTURE, SAFETY AND SECURITY

DEB FISCHER, Nebraska, Chairman      CORY BOOKER, New Jersey, Ranking
ROGER F. WICKER, Mississippi         MARIA CANTWELL, Washington
ROY BLUNT, Missouri                  CLAIRE McCASKILL, Missouri
KELLY AYOTTE, New Hampshire          AMY KLOBUCHAR, Minnesota
JERRY MORAN, Kansas                  RICHARD BLUMENTHAL, Connecticut
DAN SULLIVAN, Alaska                 BRIAN SCHATZ, Hawaii
RON JOHNSON, Wisconsin               EDWARD MARKEY, Massachusetts
DEAN HELLER, Nevada                  TOM UDALL, New Mexico
STEVE DAINES, Montana

















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 7, 2015.....................................     1
Statement of Senator Fischer.....................................     1
Statement of Senator Booker......................................     2
Statement of Senator Nelson......................................    43
Statement of Senator Cantwell....................................    44
Statement of Senator Klobuchar...................................    46

                               Witnesses

Susan Alt, Senior Vice President, Public Affairs, Volvo Group 
  North America..................................................     4
    Prepared statement...........................................     5
Paul E. Misener, Vice President, Global Public Policy, Amazon.com     9
    Prepared statement...........................................    10
Gregory C. Fox, Executive Vice President, Operations, BNSF 
  Railway Company................................................    12
    Prepared statement...........................................    14
Michael R. Christensen, Senior Executive Lead, Supply Chain 
  Optimization, Port of Long Beach...............................    29
    Prepared statement...........................................    30

                                Appendix

Response to written questions submitted by Hon. Roy Blunt to:
    Susan Alt....................................................    53
Response to written questions submitted to Paul E. Misener by:
    Hon. Roy Blunt...............................................    54
    Hon. Steve Daines............................................    55
Response to written questions submitted to Gregory C. Fox by:
    Hon. Roy Blunt...............................................    55
    Hon. Steve Daines............................................    56
Response to written questions submitted by Hon. Roy Blunt to:
    Michael R. Christensen.......................................    57
 
                       TECHNOLOGIES TRANSFORMING
                         TRANSPORTATION: IS THE
                         GOVERNMENT KEEPING UP?

                              ----------                              


                         TUESDAY, JULY 7, 2015

                               U.S. Senate,
         Subcommittee on Surface Transportation and
           Merchant Marine Infrastructure, Safety, and Security,   
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 1:35 p.m., in 
room SR-253, Russell Senate Office Building, Hon. Deb Fischer, 
Chairman of the Subcommittee, presiding.
    Present: Senators Fischer [presiding], Blunt, Booker, 
Nelson, Cantwell, and Klobuchar.

            OPENING STATEMENT OF HON. DEB FISCHER, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Fischer. Good afternoon, everyone. I am pleased to 
convene the Senate Subcommittee on Surface Transportation and 
Merchant Marine Infrastructure, Safety, and Security for its 
sixth hearing, which is titled ``Technologies Transforming 
Transportation: Is the Government Keeping Up?''
    Ranking Member Booker suggested holding this hearing, and 
he and I are excited to bring together a range of issues that 
we have worked on together here in the Senate. For example, we 
underscored the important role that technology plays in our 
daily lives by collaborating on the Internet of Things 
Resolution at the beginning of this Congress. I was pleased to 
see that our resolution passed the Senate earlier this year. 
We've also made progress on several transportation matters 
related to maritime, rail, and highway infrastructure. Our 
hearing brings our work on these various issues together.
    Today, we will explore the Federal Government's response to 
the current technological developments in our Nation's 
transportation industry. In order to maximize the efficiency 
and safety gains being made by the private sector, the Federal 
Government must ensure that it is keeping up with modern 
technology, regulatory frameworks must facilitate rather than 
hinder technological advancements. In some ways, our hearing is 
entering uncharted territory, because government is generally 
reactive rather than proactive. Today's hearing is an 
opportunity to look into the future and to identify ways to 
make innovation easier so that we can grow quicker, safer, and 
easier.
    Automated driving, for instance, has the potential to make 
trucks more efficient, and could result in thousands of dollars 
in annual savings. Additionally, automation has the potential 
to make American companies more competitive in the global 
market. As our stakeholders will testify, a patchwork of State 
laws is holding back the transportation's--industry's ability 
to take advantage of the benefits technology provides. Clearly, 
more should be done to foster innovation and streamline 
obsolete regulations. Step one is educating policymakers and 
innovators on what exists and how we can facilitate more 
voluntary solutions to our transportation challenges with 
cutting-edge technologies.
    Technology has the potential to automatically process, 
sync, and coordinate complex transportation systems. Increased 
automation and connectivity make transportation and logistical 
networks more efficient. Most importantly, innovations in 
transportation offer tremendous opportunities to improve 
safety. Autonomous trucking technologies, for example, will 
strengthen driver awareness and reduce accidents on our 
Nation's roads.
    Additionally, we will hear how the increased use of 
trackside monitoring devices and the development of robust data 
bases will provide the railroad industry with the ability to 
better repair and upgrade critical infrastructure. In other 
words, the Internet of Things and Big Data are identifying the 
challenges of tomorrow with technologies that we have today.
    We must also appreciate the role our Nation's ports play as 
centers of intermodal connection in our transportation network. 
To compete globally, America's ports are modernizing to drive 
efficiency and keep goods moving throughout the country. The 
benefits of technological advancements are clear for our 
economy, for our safety, and for the efficiency of our 
transportation networks.
    I look forward to hearing from our witnesses about the 
kinds of policies that will promote innovation. Our country is 
a leader in innovation, constantly creating the next big thing 
to drive the global economic engine.
    And I would now invite Senator Booker to offer his opening 
remarks.

                STATEMENT OF HON. CORY BOOKER, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Booker. Thank you, Senator Fischer.
    I want to also just acknowledge that--Senator Blunt, it's 
good to have you here this afternoon.
    I appreciate that Senator Fischer is holding this hearing. 
We've done extensive work together on both technology and 
transportation, and I'm excited to examine further where 
government can help and, conversely, where government could 
stop hindering. And in the ``meeting the infrastructure 
challenges'' especially, this is important.
    Senator Fischer and I have discussed the tremendous 
innovation happening in this country--we're both excited by 
it--and how some of our government agencies may not actually be 
equipped to keep up with this incredible innovation. This is a 
theme that I'm sure our panel of witnesses will update us on 
today.
    Technology is rapidly changing. Everything we do, including 
how we commute and maintain our critical transportation 
systems, is changing. It's changing how we get to work, how we 
drive our cars, and even how we hail a cab. We have an 
opportunity to harness new technologies to dramatically improve 
public safety, reduce costs, create jobs, and address 
infrastructure problems in creative new ways. The Federal 
Government can be a key player in helping to advance and 
utilize these developing technologies.
    Let's take a look at safety. While traffic-related 
fatalities and injuries continue to decline, over 30,000 people 
each year still die on our highways. We continue to see trains 
that derail too frequently, putting enormous burdens on our 
first responders. In the face of these challenges, we've got to 
understand the opportunity that comes with technology and 
improving our transportation systems. Our country has already 
invested billions in interstate highways, bridges, rails, and 
ports. Technology could help us to get more out of what we've 
already built.
    Today, there are market-ready, proven solutions to make our 
roads safer, from automatic braking to high-tech camera 
technologies to sensors and radar, and even autonomous cars and 
drones. Advanced technologies can now alert a truck driver, and 
even take control of a vehicle if they began to drift out of 
their lane or fail to brake with stopped traffic ahead. 
Technology can enable a smartphone, using realtime information, 
to suggest to a driver the best time to hit the road for their 
commute or family trip, or direct a driver to the nearest 
available on-street parking place, something we need in 
Washington. Harnessing technology will not only save time and 
fuel use, it will reduce traffic congestion for everyone else 
on the road, something drivers in my state and throughout the 
Northeast know all too well. New technologies can improve the 
safety and efficiency of our rail network and our port 
facilities. It is critical that we reexamine how we invest in 
our infrastructure, how we plan for the future, and how we make 
the best use of these technologies.
    I look forward to hearing from our witnesses today about 
how the Federal Government can help existing businesses thrive, 
how the Federal Government can be a worldwide leader and--help 
us to be a worldwide leader in innovation and advance, not 
stall, innovative and transformative innovations.
    Thank you.
    Senator Fischer. Thank you, Senator Booker.
    And I would like to welcome our first panel of witnesses 
today. We have Ms. Susan Alt, the Senior Vice President, Public 
Affairs, Volvo Group North America; Mr. Paul Misener, Vice 
President of Global Public Policy, Amazon; Mr. Gregory Fox, 
Executive Vice President, Operations, BNSF Railway; and Mr. 
Michael Christensen, Executive--Senior Executive Lead, Supply 
Chain Optimization, Port of Long Beach.
    And, with that, I will begin with Ms. Alt if you would like 
to give us your testimony, please.

STATEMENT OF SUSAN ALT, SENIOR VICE PRESIDENT, PUBLIC AFFAIRS, 
                   VOLVO GROUP NORTH AMERICA

    Ms. Alt. Thank you.
    Chairman Fischer, Ranking Member Booker, and distinguished 
members of the Subcommittee, thank you for the opportunity to 
be here today to talk about new transportation technologies and 
how they improve both safety and efficiency in our 
transportation network and the role that the Federal Government 
play in either facilitating or hindering that development.
    The Volvo Group is a world leader in sustainable 
transportation solutions. We build stuff that make the roads, 
and we build stuff that uses the roads. In the U.S., we produce 
heavy-duty trucks under the brand names of Mack and Volvo, 
Volvo construction equipment, Volvo Penta marine engines, and 
Prevost coaches and Nova transit buses. We subscribe to a 
build-where-you-sell philosophy, and we have more than 12,000 
U.S. employees with nine manufacturing facilities in six 
States. And our goal is zero accidents.
    I'm going to comment today from a heavy-duty truck 
perspective, because trucking delivers more than 80 percent of 
the value of the freight that's shipped in the United States.
    Buyers of heavy-duty trucks today can opt for technology 
that will keep the driver and other vehicles on the road safer, 
things like lane-departure warning systems or active braking. 
But, on the horizon, we see great potential for both vehicle-
to-vehicle--V2V--and vehicle-to-infrastructure--V2I--
technologies. Messages for V2V and V2I applications are sent on 
the 5.9 gigahertz bandwidth of the radio frequency spectrum. 
It's sent using dedicated short-range communications, or DSRC. 
In 1999, the Government got it right when it set aside and 
protected this frequency for only safety-related communication. 
But, in 2013, the FCC began exploring using the 5.9 gigahertz 
spectrum to also support unlicensed Wi-Fi users. Proposals have 
been provided, but no consensus yet reached. The concern is 
that allowing other technologies to be shared on the same 
spectrum could create a lag or a latency in sending lifesaving 
communications signals.
    So, let me clarify. Let's say vehicle number 1 is 
approaching an intersection with a green light, but the view of 
an oncoming vehicle is blocked by a building. Using a DSRC V2V 
application, the driver in vehicle number 1 can be alerted of 
an oncoming vehicle number 2 that's not slowing down for his 
red light, and the alert will allow the collision to be 
avoided. If there's any latency in that signal because of 
interference--for example, a Wi-Fi user watching a video--the 
accident likely would not be avoided. So, until a solution is 
found for spectrum-sharing of the 5.9 gigahertz frequency, we 
want it to remain dedicated for safety-related applications 
only.
    An example of where vehicle-to-infrastructure--V2I--can 
improve safety and freight efficiency is the roadside weight 
and inspection stations, where trucks stop along the interstate 
to wait in long lines that can create potential hazards. The 
Volvo Group has already demonstrated technology using V2I 
communication protocols from the truck to the weigh station 
that allows moving trucks to wirelessly communicate their 
credentials to the inspection stations, such as if the weight 
of the vehicle is below the limit or if the driver is wearing a 
seatbelt. It keeps those trucks moving and allowing authorities 
to focus on the condition of other trucks that haven't been 
validated in a program we call Trusted Truck.
    Let me end with what is probably the talk of the town, and 
that is automated technology or autonomous vehicles. That is 
using connected vehicle technology fused with onboard collision 
avoidance technology. We think the area is very interesting, 
but caution our pace of implementation will be set by how 
safely it can be adapted to the vehicles, to the 
infrastructure, and society.
    Platooning is one example of automated technology. This is 
where there's a lead or a pilot truck. It's wirelessly linked 
to a truck that's following behind it. Volvo Group and the 
California Partners for Advanced Transportation Technology, or 
PATH, are in the process of implementing a two-truck platoon 
demonstration at slow speeds that will be extended to three 
trucks in 2016. Full-scale demonstration has yielded some 10 
percent fuel efficiency gains by platooning trucks because of 
the reduced air drag.
    We're developing technologies for connected and automated 
driving because of their potential to enhance safety and 
improve productivity. Increasing the speed of adoption for 
these technologies could be achieved if we eliminated 12 
percent Federal excise tax that's added to the purchase of a 
new truck and offsetting that with a higher fuel tax.
    Another challenge is that, though our products roll across 
state lines, different states are developing different 
regulations to promote autonomous vehicle testing. We'll need a 
national standard before these vehicles can become operational.
    With uncertain funding for the U.S. transportation 
surface--surface transportation system, adoption of these new 
technologies will allow us to move increasing amount of 
freights for a growing population, but it won't solve all of 
our freight capacity problems, and it doesn't let Congress off 
the hook to do its job of providing Federal funding and passing 
a long-term surface transportation bill.
    Thank you for the opportunity to testify to you today. I 
look forward to questions.
    [The prepared statement of Ms. Alt follows:]

Prepared Statement of Susan Alt, Senior Vice President, Public Affairs, 
                       Volvo Group North America
    Chairman Fischer, Ranking Member Booker, and distinguished members 
of the Subcommittee, I would like to thank you all for the opportunity 
to appear before you today to discuss the importance of innovative 
transportation technologies that are improving the safety and 
efficiency of our transportation network and the role the Federal 
Government plays in either facilitating or hindering that development. 
My name is Susan Alt and I am the Senior Vice President for Public 
Affairs for Volvo Group North America.
    The Volvo Group is one of the world's leading manufacturers of 
trucks, buses, construction equipment, and drive systems for marine and 
industrial applications. When it comes to surface transportation, we 
build products that make roads and we build products that use them. In 
the United States, we produce heavy-duty trucks, engines, and 
transmissions under the Volvo and Mack brands, Volvo Construction 
Equipment, Volvo Penta marine engines, plus Prevost coaches and Nova 
transit buses. The United States is the largest single country market 
for the Group worldwide and since we subscribe to a ``build where you 
sell'' philosophy, we have more than 12,500 U.S. employees and nine 
manufacturing facilities in six states. We firmly believe that 
technology drives both improved safety and efficiency of the U.S. 
freight system and the Volvo Group has long been a leader in developing 
and implementing safety technologies without regulation on all our 
vehicles. Our goal is zero accidents, which can only be achieved by 
close cooperation between public, private and non-profit stakeholders.
    The primary questions before the Subcommittee today are how 
technology can improve the safety and efficiency of our U.S. 
transportation system and whether the government is helping or 
hindering the adoption of new technologies. I am going to answer these 
questions primarily from a heavy-duty freight truck perspective because 
trucking delivers nearly 70 percent of the domestic tonnage and more 
than 80 percent of the value of freight shipped in the United States. 
These questions come at a transitional time for the heavy-duty 
commercial vehicle industry because a great deal of vehicle technology 
is emerging to help mitigate accidents and increase on-time delivery of 
freight. The government can help by putting in place policies to ensure 
the safest and most efficient adoption of these technologies in 
vehicles.
    Let's say you want to purchase a new heavy-duty Class 8 truck, and 
you want to take advantage of available technologies to help reduce the 
risk of an accident and ensure the freight is delivered on-time all the 
time. Today, there are at least four areas where newly developed 
technology will help you.

  1.  The first is new safety technology on the vehicle itself such as 
        electronic stability control (ESC), adaptive cruise control, 
        rear view cameras, active braking and lane departure warning 
        systems;

  2.  The second is new technology to improve driver behavior such as 
        remote monitoring of the quantity of hard braking applications, 
        the speed traveled, or hours of operation on routes;

  3.  The third area is new technology to predict the vehicle uptime 
        such as remote vehicle monitoring and diagnosing to predict a 
        failure and alert the driver or dispatcher to take action 
        before it occurs;

  4.  And fourth, new technology to dynamically plan the driver's route 
        to minimize stops or delays due to traffic congestion.

    You would specify all of these options to be installed on your new 
truck to meet your objective. (N.B. the National Highway Traffic Safety 
Agency (NHTSA) recently finalized a regulation that mandates ESC for 
new truck tractors. The rule is applicable to typical three-axle truck 
tractors manufactured on or after August 1, 2017 and allows four years 
of lead time for all other truck tractors).
    The next step to further reduce the frequency of vehicle accidents, 
while also improving efficiency of the freight system is the adoption 
of technology that wirelessly connects trucks to each other, to other 
vehicles and transportation users, and to the infrastructure itself. We 
see great potential from both vehicle-to-vehicle (V2V) and vehicle-to-
infrastructure (V2I) technologies. Volvo is the only truck member of 
the Intelligent Transportation Society of America (ITS America) 
participating in the newly formed V2I Deployment Coalition. We are also 
the first truck OEM to formally participate in the Crash Avoidance 
Metrics Partnership (CAMP) V2I consortium, whose mission is to assist 
the U.S. Department of Transportation in developing, evaluating and 
testing V2I applications to enhance safety, mobility, and environmental 
sustainability. The protocols for V2V and V2I applications are 
supported by the dedicated short range communications (DSRC) standards 
and operating in the licensed 5.9 GHz band of the radio frequency 
spectrum. With communications occurring ten times per second, it is 
critical that these messages be free of any signal interference. The 
Institute for Electrical and Electronics Engineers (IEEE) and the 
Society of Automotive Engineers (SAE) are professional international 
organizations that set standards for these communication protocols. 
DSRC standards are largely mature, but are in a revision phase prior to 
NHTSA issuing a draft rulemaking that will mandate DSRC for light duty 
vehicles later this year. For example, the IEEE 1609.2 standard that 
outlines security services needs a re-defining of the data structures 
and encoding. The SAE J2735 message set dictionary is currently being 
finalized. The SAE J2945.0 and J2945.1 standards that specify the on-
board minimum performance requirements for V2V safety systems are 
expected to be published later this year. These examples show that 
solutions are coming to address concerns regarding security/privacy, 
positioning, and scalability, to name a few.
    The government got it right when in 1999 the Federal Communications 
Commission (FCC) had the vision to set aside and protect the 5.9 GHz 
frequency spectrum for only safety related communication. However, in 
2013, the FCC began exploring the possibility of using the 5.9 GHz 
spectrum to also support unlicensed Wi-Fi users and the coexistence of 
Wi-Fi and vehicle safety communications on the same spectrum. Two 
proposals to share the spectrum using different access mechanisms have 
been developed; however, no consensus position was reached. The concern 
is that by allowing other technologies to be shared on the same 
spectrum, it could create a lag or latency in sending critical and 
lifesaving communication signals. Therefore, we join with the 
automotive industry, ITS America, and others in opposing S. 424, the 
Wi-Fi Innovation Act that would open up the 5.9 GHz frequency spectrum 
to Wi-Fi access for non-safety and other applications such as 
entertainment and advertising. Passage of this legislation is premature 
as the automotive, Wi-Fi and transportation safety communities work 
with the FCC, NHTSA, and the Department of Commerce's National 
Telecommunications and Information Administration (NTIA) to explore 
whether a technical solution exists that would not compromise the 
opportunity to save lives.
    To clarify how this works, let me provide an example: a Vehicle to 
Vehicle (V2V) safety message may be something as simple as vehicle #1 
(a loaded tractor-trailer operated by a professional commercial driver) 
approaching a signal intersection that is green, but the view of 
oncoming vehicles is blocked by a building. Using a DSRC based V2V 
application, it is possible to alert the truck driver of an oncoming 
vehicle #2 that is not slowing down for his/her red light, and the 
system alert will allow the collision to be avoided. Furthermore, there 
are opportunities to integrate this alert with the vehicle braking 
system to achieve partial automation to enhance safety. If there is any 
latency in that signal because of interference from (e.g.) a Wi-Fi user 
watching a video, the accident likely would not be avoided. Consider 
how such risks can multiply exponentially in situations involving not 
just two vehicles in an intersection, but hundreds of vehicles moving 
through a heavily congested area. For this reason, until a solution is 
found for spectrum sharing of the 5.9 GHz frequency, we want the 
spectrum to remain dedicated for safety related applications only.
    Getting back to that next technology--the V2V and V2I connected 
vehicle technology--to further improve safety and efficiency in our 
transportation system, let me share an example of a Vehicle to 
Infrastructure (V2I) message that could greatly improve safety and 
freight efficiency. Truck inspections play an important role in 
maintaining safety. However stopping along the interstate to wait in 
long lines at weigh stations negatively impacts fuel efficiency and the 
environment, increases driver fatigue, and causes potential delivery 
delays. To avoid these disadvantages, the Volvo Group has already 
demonstrated technology using V2I communications protocols from the 
truck to the weigh station here in the U.S that allows moving trucks to 
wirelessly communicate their safety and maintenance credentials to 
inspections stations--keeping them moving and allowing authorities to 
focus on the condition of trucks that haven't been validated in what 
was called Trusted Truck. These messages coming from sensors on the 
vehicle can provide driver's credentials such as if he is wearing a 
seatbelt or the ``health'' of a truck, such as if the tires are fully 
inflated or the overall weight is legal. Field testing such a system 
could further validate this concept.
    Another example of V2I technology's potential contribution to play 
an important part of safer and efficient transportation is the Volvo 
Group's experimental technology that allows a 360 degree scan of 
everything that happens in a truck's environment. The truck analyzes 
the traffic around it, with the possibility to predict up to 5 seconds 
ahead what surrounding objects like people, cyclists and other vehicles 
will do--even when moving. If a collision is imminent, the driver is 
warned audibly and if the driver doesn't stop the truck, the truck 
brakes for him or her. By alerting the driver of risks and, when needed 
taking control of the vehicle, the system helps eliminate human error 
and further mitigates the risk of accidents.
    I've told you about newly available technology and I have given you 
a look into the potential of connected vehicles. Let me end with what 
is perhaps the final frontier--automated or autonomous driving 
technologies. That is, using the connected vehicle technology fused 
with on-board collision avoidance technology. NHTSA has defined this as 
Level 3 in its criteria for Driving Automation. With many OEMs touting 
some version of this technology in the works, trucks equipped with 
autonomous driving technology seem to be the ``talk of the town'' in 
our industry.
    Volvo Group believes that vehicle automation has significant 
potential to improve traffic safety and transport efficiency while 
reducing the environmental and other societal costs. It also has the 
potential to increase road capacity with limited investment in road 
construction as more trucks could travel safely within shorter driving 
distances. Given the ``high tech'' character of trucks equipped with 
autonomous driving technology, and the fact even a so-called 
``autonomous truck'' will still need a human driver for the foreseeable 
future, it may even lure younger drivers to an industry sorely lacking 
drivers. As an OEM with a global presence and many product areas, the 
Volvo Group sees potential for autonomous driving technologies for many 
types of transportation scenarios and application areas.
    Perhaps you have driven a car with adaptive cruise control or ACC? 
It is where you take a ``leap of faith'' by allowing the car's 
automation technology to slow itself if the distance set between you 
and another car becomes too close. We have the same adaptive cruise 
control technology in our heavy-duty trucks. Cooperative Adaptive 
Cruise Control (C-ACC), Adaptive Cruise Control married with vehicle 
connectivity technology, also called ``platooning,'' is an early 
application of automation that we believe will have a positive impact 
on safety, reduce road surface usage, improve traffic flow, as well as 
provide a significant potential to reduce fuel consumption. Full-scale 
experiments indicate that platooning reduces fuel consumption for long 
haul transports by approximately 10 percent over a complete transport 
mission due to reduced air drag.
    Future development will continue with vehicles equipped with 
autonomous driving technologies to be confined to operating in areas at 
low speed as an important first step towards higher degree of 
automation. Full automation and operating at higher speeds on public 
roads will take longer and need more research. Research needs to be 
performed in close collaboration with governmental entities in order to 
handle legal issues and public acceptance. Vehicle connectivity (V2X) 
will increase the performance of existing and future safety systems and 
is a prerequisite for vehicle automation; also, collaboration is 
necessary to agree on standards and implementation roadmaps. The 
technical solutions and advanced concepts for both V2X networks and 
integration of autonomous technologies are being conceptualized by 
researchers around the world. The U.S. could take a leading position in 
this field with more robust research and development funding for 
academia and the private sector.
    A challenge for us as a U.S. manufacturer is that different states 
are developing different rules and regulations to promote autonomous 
vehicle testing, but a national standard is needed as our vehicles 
travel across all state lines. For example, there are regulations 
regarding the allowable distance to follow a truck on public roadways 
that need to be changed to allow for further testing and demonstration. 
Clear, precise and thoughtful definitions must be provided. In this 
brave new world of ``automation,'' careful consideration must be given 
when writing new regulations for this area. Using generic terms like 
``driver'', ``control'', or even ``system'' in regulations can create 
confusion and misinterpretation. Additionally, regulations written when 
trucks were not as ``smart'' as they are today can have a drag on 
adoption. There are inconsistent state laws for axle loading that 
prevents the wider adoption of 6x2 liftable axle configurations. The 
required position of marker lights at the rear of a trailer conflicts 
with the aerodynamic position of a boat tail is another such example
    Volvo Group and the California Partners for Advanced Transportation 
Technology (PATH) are in the process of implementing a two-truck 
platoon at slow speeds that will be extended to three trucks in 2016. 
These trucks leverage the V2V messages in addition to forward-looking 
sensors, using radar plus a camera, to help maintain constant clearance 
and dynamically harmonize cruising speeds. The SAE standards 
organization is working to develop and harmonize the message sets and 
protocols together with the European Telecommunication Standards 
Institute (ETSI).
    We are interested in developing technologies for connected and 
automated driving because of their potential to enhance safety, 
environmental efficiency, and productivity that are paramount to us and 
our customers. This may substantially change how the traffic system and 
the vehicles are designed, both in urban and extra-urban environments. 
With these technologies in widespread use, we will be able to more 
efficiently use the available road space to increase mobility and 
transportation efficiency. This will truly support sustainable 
development in the face of growing population and transportation needs.
    I've mentioned several times that a faster rate of adoption of 
these technologies will help meet our overall goals, but they will only 
be achieved if the customer can make a business case for their 
purchase. Today there is a 12 percent Federal Excise Tax (FET) on the 
purchase price of each new Class 8 heavy-duty truck. As advanced 
technologies are added to trucks and the purchase price increases, this 
FET becomes more onerous. If we eliminated that FET, and offset it with 
a higher fuel tax, it would encourage faster integration of vehicles 
with new technologies on our roads.
    In the face of either stagnating or uncertain funding for our U.S. 
surface transportation systems, it is the adoption of these new areas 
of technologies that will allow us to move increasing amounts of 
freight for a growing population. The technology will help ease 
congestion on the roads, but it won't solve all our freight capacity 
problems and doesn't let Congress off the hook to do its job of 
providing Federal funding to maintain and grow the overall 
infrastructure.
    The last major transportation reauthorization, Moving Ahead for 
Progress in the 21st Century (MAP-21), was an important step in 
implementing key surface transportation policy reforms. However, 
infrastructure investment must be considered as a long-term strategic 
objective. The Volvo Group believes that a full six year, well-funded 
reauthorization is needed to address the persistent challenges that are 
already well-documented and recognized as problems facing our 
transportation system. We are encouraged by the recent action of the 
Environment & Public Works Committee to pass the DRIVE Act and stand 
ready to work with the Commerce, Science, and Transportation Committee 
on its portion of the Senate's reauthorization bill this year.
    Transportation moves our economy, and we need every sector of our 
economy functioning to maintain growth and remain competitive globally. 
A strong infrastructure has a direct and vital impact on America's 
competitiveness. Technological innovations in the trucking industry can 
not only improve safety, but can also improve the efficiency and 
productivity of the network. The Federal Government should continue to 
work collaboratively with the industry to ensure that these innovations 
are accepted in the market. Thank you for the opportunity to testify 
today, and I will be happy to respond to any questions.

    Senator Fischer. Thank you.
    Mr. Misener, welcome.

         STATEMENT OF PAUL E. MISENER, VICE PRESIDENT, 
                GLOBAL PUBLIC POLICY, AMAZON.COM

    Mr. Misener. Thank you, Madam Chair. Thank you for having 
me.
    Amazon began selling online 20 years ago this month, in 
July 1995. Our challenge was to create at scale a new form of 
warehousing, where truckloads of pallets of goods would be 
received and stored, but, instead of newly assembled big 
pallets being periodically trucked out to retail stores, we 
would ship brown boxes via carriers directly to customers. 
Thus, we developed pallet-in/box-out. At first, the sales 
through our website were only at retail, but now third-party 
sellers are responsible for 40 percent of all the units sold 
through Amazon, and many of our services--and many use our 
services to warehouse and fulfill orders of their goods. So, 
now we receive not just pallets of goods, we often--also 
receive small brown boxes to be stored, waiting for a customer 
to place an order for the goods. In sum, our warehouses, which 
we call Fulfillment Centers, now support box-in and box-out.
    Last December, Time magazine produced a brief video 
illustrating this process. And thank you, Madam Chair, for 
showing it here today. It begins deep inside a truck trailer 
parked at the loading dock at one of our warehouses, looking 
backward as the trailer door is opened.
    [Video presentation.]
    Mr. Misener. There is sound for this. There we go. Thank 
you.
    After we receive an item, it is stored, awaiting a customer 
order. Those orange things are robots. They move shelves that 
weigh up to 750 pounds.
    Once a customer orders an item, it is retrieved and sent 
for packing, and then it is loaded on a truck for shipment.
    While we continue to improve the efficiency of operations 
within our facilities, we also have developed and invested 
heavily in a more efficient way to hand off boxes to the U.S. 
Postal Service. Rather than give the UPS--USPS an unsorted 
stack of boxes, we've begun operating over 15 so-called 
Sortation Centers that provide the USPS groups of boxes all 
going to roughly the same location. This arrangement, as well 
as Amazon's package volume, benefits the USPS by letting it 
make better use of its facilities, equipment, and personnel 
without incurring the costs of building additional capacity in 
its upstream logistics network.
    But, of course, we and our partners, and ultimately our 
customers, need government to keep up by providing adequate 
funding, innovative policies, and balanced regulation.
    Thank you again for inviting me to testify. I look forward 
to your questions.
    [The prepared statement of Mr. Misener follows:]

   Prepared Statement of Paul Misener, Vice President, Global Public 
                           Policy, Amazon.com
    Thank you, Chairwoman Fischer and Ranking Member Booker. My name is 
Paul Misener, and I am Amazon's Vice President for Global Public 
Policy. Transformative innovations in commercial transportation 
technology are dramatically improving the way American consumers buy 
and receive goods, but the private sector cannot make all of the 
necessary improvements; government needs to keep up. Thank you for your 
attention to this important topic; for calling this hearing; and for 
inviting me to testify.
    As familiar as the Amazon.com website may be, the physical 
infrastructure and transportation operations that support the delivery 
of physical products ordered through it are less well known. Some of 
that infrastructure and operations--such as within our warehouses--is 
completely controlled by Amazon; some of it is shared with third 
parties, such as parcel carriers, with which we work closely; and some 
of it is beyond our control, such as the construction and maintenance 
of public highways and bridges. All of it is necessary, however, to 
support how American consumers shop online.
    Amazon first began selling online 20 years ago this month, in July 
1995. By that time, other companies already had perfected large-scale 
warehousing designed to support networks of physical retail stores. In 
their model, warehouses are designed to receive, from suppliers, 
truckloads of goods, usually stacked on pallets easily moved by 
forklifts. Inside the warehouses, the pallet loads--for example, one 
pallet of light bulbs, another of staplers, and another of printer 
paper--would be disassembled, and the goods stored on shelves, awaiting 
distribution to physical stores in the region. Periodically, perhaps 
daily or weekly, and based on the inventory needs of individual stores, 
a new truckload of pallets would be assembled for delivery, perhaps 
with one of the pallets carrying, among many other things, two dozen 
lightbulbs, three staplers, and two boxes of printer paper. In sum: 
pallet in and pallet out.
    Our challenge at Amazon was to create at scale a new form of 
warehousing, where truckloads of pallets of goods would be received and 
stored, but instead of newly assembled big pallets being periodically 
trucked out to retail stores, we would ship out little brown boxes via 
carriers directly to customers. To meet this challenge efficiently, we 
needed to create a new kind of warehouse infrastructure that was highly 
reliant on computer technology and automation. For large items, such as 
a washing machine, we still needed to handle them individually, but for 
relatively small items--which comprise the vast majority of the items 
we sell--we developed elaborate conveyor systems which can whisk items 
quickly through a warehouse from where they are stored to other 
locations where they can be boxed and loaded into a carrier's truck. 
Thus we developed at scale, pallet in, box out.
    At first, the sales through our website were only retail, meaning 
that we had bought the goods ourselves and then sold them to our buyer 
customers, i.e., consumers. But in order to increase the selection of 
products for our buyer customers, we invited a new class of customers 
to sell through our website. These seller customers, through what 
became known as the Amazon Marketplace, have become a very important 
part of our customer experience, and currently are responsible for 40 
percent of all the units sold through Amazon. Many of these seller 
customers now also use our services to warehouse and fulfill orders of 
their goods. Through this service, known as Fulfillment by Amazon, we 
now receive not just pallets of goods, we often also receive little 
brown boxes, to be stored, waiting for a customer to place an order for 
the goods. In sum, our warehouses--which we call ``fulfillment 
centers''--now support box in, box out.
    There are three particularly transformative aspects of our 
fulfillment center technology. The first is random placement of items. 
Take, for example, a teddy bear. A teddy bear is not stored on a shelf 
labeled ``Teddy Bears'' or ``Stuffed Animals'' or even ``Toys.'' It is 
placed among other completely unrelated items, such as a Cuisinart 
product. This process, by which products are stored anywhere within our 
fulfillment centers is called, appropriately, ``random stow.'' But 
although it might seem haphazard as well as random, it is not. This 
process, carefully monitored by our computer systems, allows us, 
following a customer order, to find the most efficient path for that 
item to travel from where it is stored to the place where it is boxed 
for shipment.
    The second aspect to note is the extensive conveyor system, which I 
mentioned before. Much of this automation was designed specifically for 
our kind of operations, at large scale. Our fulfillment centers are 
indeed very large: many exceed one million square feet and, with 
mezzanine floor space included, some contain 59 football fields of 
floor area under one roof. At these sizes, it is essential for 
efficiency and customer delivery speed that items can move within the 
building at high speed, hence the extensive use of conveyor technology.
    Lastly, there are squat mobile robots from Amazon Robotics that 
carry shelves around the fulfillment center floor. A natural extension 
of our conveyor automation, these robots greatly increase the speed of 
order fulfillment for our customers. They each weigh 320 pounds and can 
lift 750 pounds--something like an NFL lineman--and we now have more 
than 15,000 operating in 10 fulfilment centers across the United 
States. Another kind of robot we use is called ``Robo-Stow'' which, at 
over five tons, the size of a male elephant, is Earth's largest robot 
arm. This machine allows us to move items quickly between floors in our 
buildings.
    The highly-automated kind of fulfillment center is known as 
``sortable,'' because it is designed to quickly sort items and, if 
there are multiple items in a customer order, to combine them into a 
single box. Another kind of fulfillment center--designed to handle 
larger items--is called ``non-sort.'' In total, we have over 50 
fulfillment centers throughout the United States, and each generation 
of fulfillment center is more technically sophisticated than the prior. 
Ten of our eighth generation fulfillment centers are operating already, 
and the first of our ninth generation is under construction in Kent, 
Washington.
    We are continuing to improve the efficiency of our operations 
within our facilities but, of course, the speed of customer order 
delivery also depends on how quickly ordered goods move from our 
fulfillment centers to our customers, so we also are working to improve 
efficiencies outside these buildings. One way, as I recently described 
to the Committee, is package delivery by drone, in the future Prime Air 
service. Drone deliveries not only require innovative aviation 
technologies and government approvals, but also meeting logistical 
challenges within our fulfillment centers.
    We also have developed a more efficient way to hand off boxes to 
the U.S. Postal Service. Rather than give the USPS an unsorted stack of 
boxes, some bound for Nebraska and others destined for New Jersey, we 
now are sorting boxes and consolidating them into sets of boxes heading 
for customers in the same particular area of the country. To help do 
this, we have begun operating over 15 so-called ``sortation centers'' 
that provide the USPS groups of boxes, all going to roughly the same 
location. So, in addition to ``pallet in, box out,'' and ``box in, box 
out,'' we now are providing what amounts to pallet or box in, and box 
or pallet out.
    Amazon has invested heavily in building these sortation centers at 
locations optimized for injecting packages deep into the USPS network. 
For deliveries coming from Amazon sortation centers, the USPS provides 
only final mile delivery services: Amazon arranges for transportation 
from our fulfillment centers; for sortation at sortation centers; and 
for delivery of sorted boxes to USPS facilities. Individual USPS 
facilities receive these packages in the early morning, so that postal 
carriers can deliver them the same day. In a single day, a typical 
Amazon sortation center will sort tens of thousands of packages, 
speeding up delivery times as well as providing later daily cutoff 
times for customer orders.
    USPS and Amazon have worked together to create innovative 
technology and develop efficient processes, including improvements in 
labelling, to help the Postal Service reduce the costs of providing 
final mile services. This arrangement and Amazon's package volume 
benefit the USPS by letting it make better use of its facilities, 
equipment, and personnel throughout the week and provide final mile 
delivery without incurring the costs of building additional capacity in 
its upstream logistics network. As on other days, Sunday shipments 
arrive at USPS post offices pre-sorted and ready for delivery and, 
because Amazon provides destination address information in advance, the 
USPS has improved efficiency on Sundays by operating only from select 
hub locations and tailoring routes to actual requirements.
    Upstream of our fulfillment centers, we are working to ensure that 
goods can easily flow into our warehouse network, including via U.S. 
ports on both the Pacific and Atlantic coasts, and via rail across the 
country. Our work and partnerships with private commercial 
infrastructure and transportation providers of multiple modes will only 
increase in the coming years.
    But, of course, our partners, we, and ultimately our customers, 
need government help to maintain adequate public infrastructure and 
provide appropriate regulation. For example, the productivity of U.S. 
ports is a significant concern. Ocean carriers have built larger ships, 
but the U.S. west coast ports have not improved their throughput and 
thus have fallen behind the larger ports in the world, and will 
continue to do so, especially as U.S. exports continue to grow.
    There are three examples of government help that deserve brief 
mention here. The first is the biggest and perhaps hardest: America's 
public transportation infrastructure simply needs investment. Thank 
you, Chairwoman Fischer, for your personal attention to transportation 
infrastructure funding. As you have pointed out, our highways and 
bridges are in dire need of investment. Like other American businesses, 
Amazon and our customers depend on an efficient and reliable 
transportation system, and we agree with your belief in the importance 
of long-term transportation policy and long-term reauthorization. 
Second, we need innovative policies for developing the future 
transportation infrastructure. A bill sponsored by the Ranking Member, 
Senator Booker, as well as Senators Murray and Cantwell from Amazon's 
home state, is one such innovative proposal, for multimodal freight 
policy. Lastly, as several of the carriers we work with have pointed 
out, permitting the use of slightly longer twin highway trailers would 
dramatically decrease the number of truck trips and miles driven. 
Amazon believes that such efficiency improvements should be embraced. 
Moreover, as the carriers note, research indicates that, if weight 
limits are maintained, the longer trailers actually would improve their 
handing properties; a finding supported by experience in Florida and 
North Dakota.
    In conclusion, commercial entities are deploying technologies to 
transform and improve the transportation infrastructure of the United 
States, and recent innovations already are providing impressive 
efficiency gains, improving the way American consumers buy and receive 
goods. But, to keep up with these advances, government needs to provide 
adequate funding, innovative policies, and balanced regulation.
    Thank you again for inviting me to testify; I look forward to your 
questions.

    Senator Fischer. Thank you very much.
    Mr. Fox, welcome.

    STATEMENT OF GREGORY C. FOX, EXECUTIVE VICE PRESIDENT, 
                OPERATIONS, BNSF RAILWAY COMPANY

    Mr. Fox. Thank you very much for the opportunity.
    My name is Greg Fox. I'm Executive Vice President of 
Operations for BNSF Railway. What I'd like to do today is 
really walk through how BNSF is utilizing technology to improve 
safety and efficiency of our network.
    BNSF, as hopefully most of you know, is a large western 
railroad, over 32,000 route miles and 47,000 employees. My team 
runs the railroad. And, in my 31 years at the railroad, I've 
seen safety improve, year after year.
    In 2014, BNSF and the rail industry achieved best-ever 
safety results. And you can see the trend that we've achieved 
over the last decade. Technology has clearly played a role in 
this success. While technology is the focus of today's hearing, 
investment in rail infrastructure and an inclusive safety 
culture for all BNSF employees are critical contributions, as 
well, to our safety results.
    Investment in maintenance and renewal of the railroad, the 
orange bars that you see on this chart, is also an important 
piece of safety. BNSF invests significant amounts of this kind 
of capital into our network to contribute directly to safe 
operations as well as to ensure reliability of our network for 
our customers. This is the largest component of our $6 billion 
of capital spend in 2015.
    The Nation's rail operations are basically a 140,000-mile 
outdoor production line. This scope and complexity means that 
infrastructure and equipment sometimes fails or that human 
error can occur. Because of this, BNSF focuses on a risk-based 
initiative for all aspects of our operations. This slide shows 
the categories of incident causes and examples of the kinds of 
countermeasures that we put in place to reduce risk. They're a 
combination of critical safety processes as well as technology.
    While you're very familiar with the implementation of 
Positive Train Control, I'd now like to share a brief video 
that illustrates the numerous other inspection and detection 
technologies that we deploy on the railroad to produce safety 
benefits.
    [Video presentation.]
    Mr. Fox. These technologies include track geometry 
vehicles. These vehicles utilize electronic and optical 
technology to monitor track geometry or the relationship with 
the rails at one point or over a distance; rail defect 
detection systems that utilize ultrasonic technology to detect 
internal rail defects; wheel temperature detectors that use 
infrared technology to identify wheel bearing fatigue; and 
machine visioning systems that inspect freight cars for defects 
in passing trains.
    BNSF is also now deploying unmanned aircraft systems, or 
drones, for supplemental visual track and bridge inspections in 
a variety of conditions. Also, earlier this year, we were one 
of three companies awarded the Pathfinder Program status from 
FAA for extended-range track integrity flights. The DOT has 
been a valuable partner in advancing the use of drone 
technology in our safety program.
    All of these technologies, as you might expect, generate a 
tremendous amount of inspection data. Leveraging this data 
through advanced analytics is where we're headed next. BNSF is 
currently working with IBM on a big data advanced analytics 
initiative to take the information that we already use for--to 
detect safety standard deviations, to ultimately drive further 
understanding of the factors that cause these deviations in the 
first place. Our goal is to drive proactive maintenance 
practices that ultimately prevent derailments from occurring.
    Let's take a look at one example. I'll walk you through how 
we're using advanced analytics to improve equipment--rail 
equipment safety. You saw the equipment detectors in the video 
earlier. BNSF currently has over 2,000 trackside detectors 
located along our 32,000-mile network that continually monitor 
the overall equipment health of passing trains using a 
combination of thermal, acoustics, visioning systems, and other 
technologies. Today, these systems identify defective equipment 
and actions taken to address these defects as they're 
identified. Our goal is to move from--to a more proactive and 
preventative type of response. We will go from focusing on 
absolute alarms really to understanding composite alarms that 
tell us when a combination of factors have been combined in 
such a way that an unsafe condition could occur. Big data 
analytics will allow us to monitor equipment health over time, 
over geography, and across railroads, and ultimately assist in 
extending asset life, improving capacity and safety.
    As you can see, the current breadth of technology and the 
potential here is tremendous as long as we have a regulatory 
framework that encourages innovation. The technologies and the 
advanced analytics themselves are very complex and evolving at 
a very fast pace. This means that the regulatory focus should 
be on safety outcomes that they focus on producing.
    One of the most significant things Congress can do for us 
is ensure that we have the right overall regulatory framework 
for railroads. If it does, the rail industry will continue to 
deploy technology in support of risk reduction and invest 
adequately in infrastructure maintenance and renewal.
    Thanks for your opportunity today to testify. I look 
forward to your questions.
    [The prepared statement of Mr. Fox follows:]

    Prepared Statement of Gregory C. Fox, Executive Vice President, 
                    Operations, BNSF Railway Company
                    
                    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                   

    Good morning, Chairwoman Fischer, Ranking Member Booker, and 
members of the Subcommittee. My name is Greg Fox and I am the Executive 
Vice President of Operations for BNSF Railway Company (BNSF). Thank you 
for inviting me today to share how BNSF uses technology to help drive 
risk reduction and continuous safety improvement on the railroad. As 
you can see from this slide, BNSF is a large Western Railroad with over 
32,000 route miles operated and employing 47,000 employees.
    My team at BNSF, runs the railroad, and of all the things that go 
into running the railroad on a daily basis, safety is the most 
important thing we do. In my 31 years at BNSF, I have seen the safety 
of our operations improve significantly.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    In 2014, BNSF and the rail industry achieved the best-ever safety 
results and has shown continuous improvement in safety over the past 
decade. Technology has played a significant role in this success.
    While technology is the focus of today's hearing, investment in 
rail infrastructure and development of a Safety Culture of Commitment 
by all BNSF employees, are all critical elements of our approach to 
overall risk reduction.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    With respect to investment, BNSF is investing record amounts of 
capital that contributes directly to operating a safe and efficient 
railroad, as well as ensuring that we're positioned for growth with our 
customers.
    In 2015, BNSF announced a $6 billion capital investment plan, with 
the largest component allocated to renewal and maintenance of our 
network infrastructure and assets. This marks the third year in a row 
that BNSF has invested a record amount of capital back into our 
Network.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The scope and complexity of the Nation's rail operations--
basically, operation of a 140,000 mile outdoor ``production line'', 
means that infrastructure and equipment sometimes fail, or that human 
error can occur.
    Because of this, BNSF has a broad-based risk-reduction framework 
that we utilize to reduce risk in all aspects of our operations. This 
slide shows categories of incident causes and examples of the kinds of 
countermeasures we have in place. These countermeasures include a 
combination of both critical safety processes as well as technology.
[Shows BNSF Video]
    While the members of this subcommittee are familiar with the 
enormous industry undertaking to implement Positive Train Control 
technology, I would like now to share a brief video that illustrates 
the numerous other technologies deployed on the railroad to reduce risk 
and drive continuous safety improvement. You have heard less about 
these technologies, but each produces significant safety benefits. 
These technologies include:

  <bullet> Track geometry vehicles that utilize sophisticated 
        electronic and optical measuring devices to monitor all aspects 
        of our track infrastructure

  <bullet> Rail defect detection systems that utilize ultrasonic 
        technology to detect internal rail defects

  <bullet> Wheel temperature detectors, using infrared technology, to 
        identify wheel bearing fatigue

  <bullet> And, Machine Visioning systems to inspect freight cars in 
        passing trains for defects BNSF is also now preparing to deploy 
        Unmanned Aircraft Systems (UAS)--drones--for supplemental 
        visual track & bridge inspections in a variety of conditions. 
        Also, earlier this year, we were one of three companies awarded 
        Pathfinder Program status by the FAA for extended track 
        integrity flights. The FAA has been a valuable partner who has 
        worked well with us to advance this game-changing UAS 
        technology.
        
     [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
        
      
    Leveraging the tremendous amount of data generated by all these 
technologies is where we are headed next. Advanced Analytics covers a 
broad spectrum of activities, but is aimed at drawing insights and 
value from large amounts of data, with the ultimate goal to improve 
decision making.
    BNSF is currently working with IBM on a ``Big Data'' Advanced 
Analytics initiative to take the information that we already use to 
detect deviations from safety standards to ultimately using this same 
data to drive further understanding of the factors that cause these 
deviations in the first place.
    Our goal is to drive proactive maintenance practices that 
ultimately prevent incidents from occurring in the first place.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Let me quickly walk you through one example of how BNSF is 
utilizing advanced analytics to improve safety.
    BNSF currently has over 2,000 equipment detectors located track 
side along our 32,000 mile network. These equipment detectors 
continually monitor the overall equipment health of passing trains, 
utilizing a combination of Thermal, Acoustic, Vision Systems, and other 
technologies.
    Today, these systems identify defective equipment and action is 
then taken to address these defects as they are identified. In order to 
move from today's reactionary-type of environment to more of a 
proactive and preventative response, our Advanced Analytics initiative 
is combining all this equipment health information into a single source 
and we're then utilizing it to predict future component and equipment 
fatigue and failures. Our ultimate goal is to improve railroad safety 
by leveraging this data to reduce service interruptions and 
derailments.
Conclusion
    As you can see, the current breadth of technology and its potential 
going forward is tremendous as long as we have a regulatory environment 
that encourages innovation. I would respectfully suggest that safety 
outcomes should be the focus when government regulation is necessary, 
not the technologies and the analytics themselves, because those are 
complex and evolving at a very fast pace.
    Ultimately, the rail industry will continue to deploy technology in 
support of risk reduction, and ensuring railroads can continue to earn 
the revenues necessary to invest adequately in infrastructure, 
maintenance and technology will be one of the most significant things 
that Congress can do. Thank you for the opportunity for BNSF to testify 
today and I look forward to responding to your questions.




                               Attachment
                               
                               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                               
                               
                               
                                 

    Senator Fischer. Thank you, Mr. Fox.
    Mr. Christensen, welcome.

              STATEMENT OF MICHAEL R. CHRISTENSEN,

SENIOR EXECUTIVE LEAD, SUPPLY CHAIN OPTIMIZATION, PORT OF LONG 
                             BEACH

    Mr. Christensen. Madam Chairwoman, members of the 
Subcommittee, thank you for the opportunity to speak with you 
today.
    Technology will help us address the precedented challenges 
that are facing our industry, which I believe are as 
revolutionary as the advent of containerization was, 50 years 
ago. Big ships and ocean carrier alliances are game-changers. 
I'll spend the next few minutes talking about specific 
technologies and strategies that we're implementing to meet 
these challenges.
    Modernizing our infrastructure is the first strategy with--
and no port in the United States is investing more than the 
Port of Long Beach through our $4 billion capital improvement 
program. Our $1.3 billion Middle Harbor Terminal is the port of 
the future. It's the greenest, most sustainable container cargo 
terminal in the United States that can accommodate the world's 
biggest, greenest ships up to 22,000 20-foot equivalent units, 
or TEUs. Middle Harbor will strengthen our ability to compete 
against Canada and Mexico for the trade that sends cargo to 
every congressional district in the United States and supports 
a million and a half American jobs.
    The terminal--this terminal by itself would be the fourth-
largest port in the Nation, and it will boost the capacity at 
the Port of Long Beach by 20 percent. Longshore jobs at the 
terminal will also be modernized and will shift to technical 
occupations, with longshore labor actually increasing over 
current levels when the terminal reaches its full capacity. 
Now, these advanced technologies will help improve efficiency 
and reduce air pollution, but they will also demand a great 
deal more electricity. So, how will we deal with this increased 
demand for reliable electric power? The answer is our Energy 
Island Initiative, a technology-driven strategy for 
transitioning energy at the port to resilient and sustainable 
self-generation systems and renewable power sources.
    So, I've talked about the infrastructure, or let's call it 
the hardware, strategy, but what about the software? Well, it 
will not be possible to meet the challenges we face without 
changing the way the port operates. We have joined our 
neighbor, the Port of Los Angeles, in a Federal Maritime 
Commission-sanctioned Joint Port Initiative that will be aimed 
at enhancing the velocity and the reliability of shipments that 
come through the San Pedro Bay Gateway. And we're making 
progress on this active--with the active involvement of 
stakeholders, which include the full range of beneficial cargo 
owners, ocean carriers, marine terminal operators, licensed 
motor carriers that dray this cargo to destination, chassis 
pool operators, our railroad partners, labor, and management.
    Now, a few things have already come out of this Joint Port 
Initiative. The supply chain optimization will largely be data-
driven. The current highly proprietary and siloed supply chain 
suffers from a inadequate data-sharing. The San Pedro Bay Port 
authorities are examining new roles to gather, filter, and 
distribute reliable data, to the benefit of the entire supply 
chain. Promising entrepreneurial software is also appearing and 
holding great potential. One example is software--is a software 
called ``CargoMatic,'' operates on a smartphone. It's an Uber-
like application that's being used as a pilot study in the San 
Pedro Bay. And, under their systems, drayage truck drivers move 
imported containers from the ports to inland destinations, much 
as a taxi driver would move passengers from an airport.
    U.S. Department of Transportation's Freight Advanced Travel 
Information System, or FRATIS, as we call it, is also showing 
great promise in transferring information between real--in 
realtime between marine terminals and drayage trucking 
operations. So, stay tuned for much more that will be coming 
from this Joint Port Initiative.
    In conclusion, our supply chain optimization efforts are 
all heavily reliant on technology in order to meet our 
objectives of not only good, but world-class, velocity and 
reliability. As local public agencies, the San Pedro Bay Ports 
are shifting from our traditional landlord role to one of 
active supply chain participant. We hope to see the Federal 
Government support us in this new role by engaging with us and 
in setting effective goods movement policy that recognizes the 
value of seaports and by creating infrastructure and energy 
funding that support the land and the waterside investments 
required to accommodate much needed growth in international 
trade.
    We look forward to working with our Federal partners in 
this exciting venture. Thank you for attention. I will look 
forward to answering any questions.
    [The prepared statement of Mr. Christensen follows:]

 Prepared Statement of Michael R. Christensen, Senior Executive Lead, 
             Supply Chain Optimization, Port of Long Beach
    Madam Chairwoman, Members of the Committee. Thank you for the 
opportunity to speak before the Committee today at this important 
hearing.
    The Port of Long Beach has long stood at the forefront of 
innovation in international trade and transportation. From the rise of 
containerization, through the growth of Pacific Rim commerce and now 
into the huge steps forward in ship capacity, facility modernization, 
and advanced technology, Long Beach has been at the epicenter of 
change.
    As a premier, deep-water port, Long Beach strives to be a leader in 
goods movement safety, supply chain optimization and environmental 
stewardship. In service to its neighboring community, its city, its 
region, the State of California, and the entire United States, the Port 
of Long Beach has become a major economic engine. Now, together with 
our neighbor, the Port of Los Angeles, Long Beach is collaborating with 
our supply chain partners to further strengthen the ability of the 
ports to facilitate trade that benefits not only the region, but the 
entire United States.
    Cargo that moves through the Port of Long Beach sustains 30,000 
jobs in Long Beach, 300,000 jobs in the Southern California region and 
1.4 million jobs in the United States. Cargo hauled across the docks in 
Long Beach touches each and every congressional district in the U.S.
    At present, fast-changing economic realities in the shipping 
industry along with the advancement and application of technology are 
bringing leading seaports to the dawn of a new age of shipping. This 
age promises cleaner, more efficient and safer transportation of 
international trade, with exciting opportunities for growth and 
innovation. Technology is affecting all links in the trans-Pacific 
supply chain.
Big Ship Era
    So exactly what are the changes to the shipping industry? It begins 
with the formation of international ocean shipping alliances and the 
size of the ships they are acquiring. These are some of the most 
significant developments in the maritime industry in decades. Until a 
few short years ago, the biggest ships calling at the Port of Long 
Beach could carry a maximum of 8,000 container units or TEUs. TEUs are 
the twenty-foot equivalent unit long cargo containers. These ships were 
already twice as big as the vessels able to fit through the old Panama 
Canal, which meant that trans-Pacific trade--the rapidly growing 
commerce between the U.S. and East Asia--came to West Coast ports like 
Long Beach. In fact, 40 percent of all imported containerized cargo 
moves through Long Beach and Los Angeles.
    But in 2012, the biggest container ship ever to call at a North 
American seaport came to Long Beach. That ship had a capacity of 14,000 
TEUs. Ships of this size now regularly call in Long Beach and Los 
Angeles. These ships are already too big to pass through the expanded 
Panama Canal. In 2016, the expanded Panama Canal opens and will be able 
to handle vessels with capacities up to 13,000 TEUs. A 14,000 TEU 
vessel is as long as the Empire State Building is tall, and as wide as 
the 10-lane 405 freeway in Southern California. And we expect to see 
further growth in ship sizes. Vessel technologies (hull design, hull 
coating, engine and propulsion technologies) have advanced at break-
neck speed resulting in the delivery this year of Very-Large Container 
Vessels that carry over 20,000 TEUs. The advent of big ships has 
reduced the cost, the amount of fuel used, and the air pollution 
created in shipping each container. The four major international ocean 
shipping alliances have embraced this ``big ship'' strategy and have 
now captured over 90 percent of the worlds ocean-going containerized 
cargo trade.
    Larger ships, coupled with a new level of vessel-sharing dynamics 
created by the carrier alliances, have created congestion issues at 
most ports because the existing container terminals and operating 
practices are simply not geared to handle the discharge of containers 
from these vessels. To help deal with the impacts of these bigger ships 
and alliances, the ports of Long Beach and Los Angeles sought and 
received permission from the Federal Maritime Commission to create a 
joint Supply Chain Optimization project. Supply Chain Optimization is 
an effort to find and implement ways to make the supply chain run more 
efficiently, maximizing velocity and reliability of goods movement 
through the San Pedro Bay gateway. The industry--accustomed to working 
in ``silos'' with minimal communication and information sharing--has 
responded enthusiastically and cooperatively.
    The ports' joint effort started this March. Already, nearly a dozen 
meetings have been held. The list of stakeholder participants is all-
inclusive across the industry, with a port executive-level steering 
committee, seven collaborative ``Working Groups'', and a stakeholder 
Core Advisory Group. These teams have identified new technology and 
data flow as major parts of the potential short-term and long-term 
solutions. And, as the supply chain runs more efficiently, one would 
expect to see environmental and economic benefits as well as increased 
job creation.
    The Supply Chain Optimization umbrella also includes the terminal 
efficiency strategies including advanced terminal operations systems 
and software, modernized terminal infrastructure and equipment, ``peel-
off'' operations and on-dock rail optimization. Drayage trucking 
improvements include an interoperable chassis ``pool of pools'' and 
state-of-the-art traffic information systems. Other enhancements in on-
dock and near-dock rail operations, including short-haul rail, will be 
discussed as a means of improving the velocity of cargo flow through 
the San Pedro Bay and within Southern California.
    Supply Chain Optimization will be largely data-driven. The current 
highly-proprietary and ``silo'ed'' containerized marine cargo supply 
chain suffers from inadequate data sharing in terms of quantity, 
quality, and timeliness. The San Pedro Bay ports are examining new 
roles in gathering, filtering, and distributing supply chain data that 
will facilitate better terminal, drayage trucking, and rail operations 
along with greater levels of transparency. Information technologies 
will be key to this effort. Additionally, promising entrepreneurial 
software applications are already appearing and hold the potential for 
significant supply chain improvements. For instance, CargoMatic, an 
``Uber-like'' application, is being used in a pilot study in the San 
Pedro Bay. Under their system, drayage truck drivers move imported 
containers from the ports to inland destinations in a highly-efficient 
manner much as a taxi moves passengers from an airport. Other software 
applications optimize the movements of empty containers and chassis by 
matching empty equipment with potential users of that equipment, 
avoiding costly and wasteful repositioning. And the U.S. Department of 
Transportation's Freight Advanced Traveler Information System (FRATIS) 
has shown great promise in early trials in sharing critical information 
in real-time between marine terminal and drayage trucking operations.
Middle Harbor Redevelopment
    When it comes to modernization to improve competitiveness, no port 
in the U.S. is investing as much as the Port of Long Beach. With a $4 
billion capital improvement program this decade, the Port is making 
major investments in waterway, terminal, roadway, rail, security, and 
information technology infrastructure. For example, our $1.3 billion 
Middle Harbor Terminal Redevelopment's first phase is being completed 
this summer, and when terminal operator Long Beach Container Terminal 
(LBCT) starts moving cargo across the docks in early 2016, it will mark 
Long Beach's first foray into advanced terminal technology.
    Middle Harbor is the ``Port of the Future''--the greenest, most 
sustainable container-cargo terminal in the United States. The terminal 
is equipped with all electric, zero-emission cranes and cargo-handling 
equipment. Advanced technology incorporated into the terminal boosts 
the Port's competitiveness in an age when seaports around North America 
are trying to protect their market share from capture by Canadian and 
Mexican ports.
    This terminal is not only big ship ready, it's ``biggest ship 
ready''--with a wharf, crane and cargo-moving systems that can 
accommodate the world's biggest, greenest ships up to 22,000 TEUs. 
Middle Harbor will allow the Port to strengthen its ability to compete 
for the trade that sustains jobs in Southern California.
    LBCT--the terminal operator--will start test operations later this 
year once the first phase of the project is completed, and ships will 
start calling at the new Middle Harbor terminal in early 2016. Ongoing 
construction of Middle Harbor is generating about 1,000 construction-
related jobs. At full build-out in 2019, the terminal will be able to 
move more than 3 million TEUs of containerized cargo each year, and 
that trade will generate an additional 14,000 jobs in Southern 
California. That means that this terminal by itself would rank as the 
fourth-largest port in the Nation. The project is the most ambitious 
container terminal modernization ever undertaken by any port in the 
Nation. The new Middle Harbor terminal will boost the Port of Long 
Beach's capacity by over 20 percent, adding not only significant 
numbers of new terminal jobs but also creating new categories of 
skilled terminal labor that will operate and maintain this 
groundbreaking technology.
    In addition to the Port's considerable capital investment, LBCT is 
spending another $600 million on the equipment for this terminal. The 
Middle Harbor Redevelopment project is consolidating two aging 
terminals into one 304-acre mega-container terminal. When the entire 
4,200-foot wharf is completed in 2019, the terminal will be able to 
simultaneously accommodate three ships as large as 22,000 TEUs.
    The rail yard on the terminal is increasing from 10,000 to 75,000 
linear feet of track to vastly increase the share of on-dock rail to 
serve the terminal. Each on-dock rail train takes hundreds of trucks 
off the road and speeds cargo to destinations throughout the Nation in 
the fastest and most efficient manner possible.
    All major buildings on the terminal will be Leadership in Energy 
and Environmental Design (LEED) or ``Green Building'' certified in 
order to reduce power and water use, reuse materials, encourage use of 
low-emission vehicles by staff, and reduce water runoff. The North 
Operations/Information Technology Building, the first building to be 
completed on the site, has already received its LEED Gold 
Certification.
    Like the Very-Large Container Vessels it will service, Middle 
Harbor is a major leap forward in technology and Long Beach's first 
automated terminal. At the new terminal, a crane operator at the 
controls of one of the world's biggest ship-to-shore cranes--which can 
reach out to 180 feet--will take the cargo containers off the ship, two 
at a time, and place them on a platform. From there, the advanced 
technology places the containers on driverless electric vehicles that 
move the containers to the stacking cranes. These cranes automatically 
sort and stack the containers in highly dense rows. At the other end of 
the row, a person in the control room will lower the containers onto 
truck chassis via remote control.
    In the terminal's battery exchange building, driverless vehicles 
will enter when directed by the terminals operating system and have 
their batteries replaced by robots as their batteries become depleted.
    Longshore labor will operate the cranes and the vehicles that move 
the containers from the stacks to the on-dock rail yard, and will plug 
in the refrigerated boxes in the reefer stacks. Technicians are also 
needed to keep the machines maintained. Long Beach Container Terminal 
is working with the longshore labor to provide training for these new 
jobs. Jobs at the terminal will shift to technical occupations, and the 
longshore union membership will perform this work. Due to increases in 
terminal capacity in the modernized Middle Harbor terminal, longshore 
labor is expected to increase over current levels when the terminal 
reaches full capacity.
    Of Long Beach's six container terminals, Middle Harbor is the only 
one that is automated. Only one of the Port of Los Angeles' eight 
container terminals is currently automated. By the time Middle Harbor 
is completed in 2019, it will have taken 15 years for planning, 
approvals, design and construction, and $1.3 billion in Port of Long 
Beach funding.
    Automation is just one way that the Port of Long Beach is working 
to modernize and strengthen the Port's competitiveness. For example, 
other terminals are raising and extending their water-side cranes, 
adding modern terminal equipment, upgrading operating systems, and 
dredging to accommodate the larger container ships. Road, bridges, and 
the rail system are all being modernized and expanded. With its $4 
billion capital improvement program, the Port of Long Beach will be 
able to continue to attract the cargo that supports jobs both in 
Southern California, and across the U.S., including the jobs of the 
workers who move the cargo on the docks.
    Every element of the Port's capital program utilizes technology to 
the maximum extent in its design, construction, and operation. New 
technologies are needed to keep pace with the larger ships, and improve 
productivity. Technologies big and small will help improve productivity 
and velocity. The advanced technologies that will help improve 
efficiency and reduce air pollution will move away from conventional 
fossil-fueled equipment and will demand a great deal more electricity. 
For example, shore-power systems that connect ships to land-side 
electricity have matured and are in widespread use in California, 
significantly reducing emissions for vessels at berth while at the same 
time controlling costs. And high-speed electric stacking cranes and 
battery-powered container movers will also add to the demand for 
electricity. This advanced technology will greatly add to the Port's 
dependence on the grid for ample high-quality electric power.
Energy Island
    In anticipation of the increasing demand for electricity, the Port 
in 2013 implemented a Port Energy Policy. And just as Long Beach's 2005 
Green Port Policy made it clear that environmental protection is a top 
priority at the Port, the new Energy Policy makes it clear that 
sustainable energy use is a top priority. We are committed with our 
customers and key stakeholders to deliver unprecedented energy 
conservation, operational efficiency and enterprise resiliency.
    We are now working on the next step. At his inaugural State of the 
Port address in January, Port of Long Beach CEO Jon Slangerup unveiled 
our Energy Island Initiative--a comprehensive strategy for 
transitioning energy at the Port to resilient and sustainable, self-
generation systems and renewable power sources. Along with creating the 
ability for the Port to operate independently from the grid in times of 
emergency or other need, the initiative's objectives include 
stabilizing power costs and increasing the competitive advantages of 
doing business at the Port of Long Beach.
    Energy Island captures a number of measures that Long Beach has 
already been developing, and it creates a framework for exploring the 
larger universe of possibilities to advance real energy solutions.
    Under the initiative, the Port has established five goals aimed at 
ensuring an ample supply of reliable electricity, alternative fuels and 
other energy sources as the Port moves toward near-zero-emissions 
operations.

  <bullet> Advance green power: The Port will pursue solar, wind, 
        geothermal and the viability of tidal energy to generate its 
        own electricity. Solar panels that provide a clean source of 
        electricity are already a key feature of the Middle Harbor 
        Terminal Redevelopment project and the Port's new Maintenance 
        Facility.

  <bullet> Use self-generated, distributed power with micro-grid 
        connectivity: The ability to generate power independently of 
        the grid is crucial to business continuity in the event of an 
        emergency. Micro-grid controls that are connected to the grid 
        also allow the Port to contribute to the regional power supply, 
        help lower the city's emissions, and supply power to vital 
        services in an emergency.

  <bullet> Provide cost-effective alternative fueling options: The Port 
        will explore options that include liquefied natural gas (LNG) 
        as fuel for ships and locomotives, hydrogen generation, fuel 
        cell technology and related infrastructure. This goal builds on 
        the existing progress the Port has made under its Clean Trucks 
        Program and Technology Advancement Program (TAP) to support 
        drayage trucks that run on LNG, compressed natural gas (CNG), 
        and hydrogen fuel cell technology.

  <bullet> Improve energy-related operational efficiencies: The Port 
        will explore strategies for maximizing available energy 
        resources, including upgrading equipment and consumption 
        controls, offering energy-efficiency guidance and leveraging 
        available incentives for operational efficiencies.

  <bullet> Attract new businesses, incubate transportation-oriented 
        technology, create jobs, increase revenue and reduce costs: By 
        advancing new technology and innovation that support the 
        maritime, transportation and energy sectors, stimulating the 
        economy is part and parcel of the Energy Island Initiative. In 
        the area of innovation and job creation, the effort will build 
        upon the Port's existing Technology Advancement Program for 
        demonstrating promising new clean air technology, to accelerate 
        the commercial availability of relevant and promising energy 
        technologies.

    Transforming the Port into an ``island'' of renewable energy 
technologies and self-generation systems is expected to take about 10 
years. The Middle Harbor terminal, which will operate almost entirely 
on electricity, is on track to become the world's greenest marine 
container terminal and a model for cleaner seaport operations 
throughout the world.
    Taking a hard look at specific energy projects includes a 
comprehensive assessment of their feasibility. In each case, the Port 
will consider the potential benefits in a marine environment; capital 
and operational costs and benefits to the Port, the community and 
stakeholders; operational burdens on Port tenants; positive and 
negative environmental impacts; the need for additional infrastructure 
and related costs; and foreseeable technology improvements and 
obsolescence.
Conclusion
    Technology touches every link in the marine cargo supply chain. Our 
Supply Chain Optimization efforts, Middle Harbor Redevelopment and 
related projects, and our Energy Island Initiative, are all reliant on 
technology, both ``hardware'' and ``software'', in order to meet our 
objectives of greater containerized cargo velocity and reliability. As 
local governmental agencies, the San Pedro Bay ports are shifting from 
our traditional ``landlord'' role to one of an active supply chain 
participant. We hope to see the Federal Government support us in this 
new role by setting effective goods movement policy that recognizes the 
value of seaports and the economic engines they represent and by 
creating infrastructure and energy funding that supports land and 
water-side improvements needed to accommodate growth in international 
trade.
    We look forward to working with our Federal partners in this 
exciting venture.



                               Attachment
                               
                               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                               
                               
                                 

    Senator Fischer. Thank you all very much.
    We will begin our round of questioning at this time.
    Ms. Alt, some research on the autonomous truck market 
estimates that, by 2020 to 2022, we're going to see level-3 
autonomous truck technologies introduced in certain states. 
And, at level 3, a driver is still required to be in the 
vehicle, but the truck can be switched into an autopilot mode 
when circumstances permit. When do you think that we're going 
to see trucks equipped with that level-3 driving technology on 
American highways? And can you go into it a little bit more on 
how that all works?
    Ms. Alt. You said that you read something that it was going 
to be available in 2020? So, we are in--so, it's 5 years from 
now. And you said ``in certain states.''
    Senator Fischer. Right.
    Ms. Alt. That's possible. There are states that have more 
flexible laws to allow for testing. The challenge is, of 
course, the products we build go across the State, so we really 
need to have some sort of a Federal standard.
    The technology's actually leading the society. I mean, the 
technology for two vehicles to talk to each other, where the 
lead truck or the pilot truck is leading the trucks behind it, 
and that--that's your level 3--that technology is not that far 
away, in terms of the actual technology. The challenge is then, 
How can it be accepted? Which roads can it be driven on? And 
are you going to be comfortable, in your vehicle, with 160,000 
pounds of freight moving beside you, with a driver that's not--
they're in control, but they're not fully in control? So, I 
think that the technology is possible, but the societal changes 
are going to have to be much more alerted to us. And then, 
also, we're going to need, again, a standard across all the 
nations, because our vehicles don't operate in one state at a 
time.
    Senator Fischer. I understand, in the United Kingdom, they 
have the least restrictive regulations with regard to the 
autonomous vehicles. Within the United Kingdom, they're not 
restricted, then, by the boundaries, right?
    Ms. Alt. I don't think so, though I don't know the answer 
to that fully. Sorry.
    Senator Fischer. Do they--it's my understanding they don't 
need special permits or even special insurance in the United 
Kingdom to be able to do that. I know that many companies are 
planning on doing some testing in the United Kingdom on British 
roads, for that reason specifically. What do you think we need 
to do here in the United States? Is it possible for the Federal 
Government to move forward with regulations if society is not 
ready for it yet?
    Ms. Alt. Yes, so it's a balance, isn't it? I mean, you 
don't want to be forcing--or identifying which technology to 
use, and then putting that into some sort of Federal 
regulation. You want the market to establish that. But, there 
are--it's a new world that we're in. You--in the regulations, 
even putting terms like, What is a driver? Is the driver the 
system that's moving the vehicle? Is the driver the guy or gal 
that's sitting behind the truck--or the driving wheel? What is 
a system? There are so many semantics that we have to think 
about differently as we put this legislation into place. So, 
what do we have to do differently is looking at, What can we do 
across all the states so that, when we design these vehicles, 
they can operate in all of the States? So, we need 
standardization of simple things, like the terminology, I 
think, is one step.
    Senator Fischer. How close are we?
    Ms. Alt. We're a long way away from that.
    Senator Fischer. OK.
    Mr. Fox, in January, this committee heard testimony from 
the UP regarding the importance of encouraging performance-
based standards in regulation. In performance standards, they 
move government away from design-based standards toward a goal 
of oriented approach to achieving that outcome. For example, 
the FRA mandates that intervals between certain types of 
locomotive inspections. Do you believe that performance-based 
standards could help foster innovation and technology-drive 
safety advances better than the design-based standards?
    Mr. Fox. Yes, we absolutely believe performance-based 
standards are the way we need to progress. Because performance-
based standards are really focused more on the outcome versus 
the method. And by focusing on the outcomes, we're free to 
innovate with technology or process changes. We've had some 
great examples of working with our safety regulator on 
performance-based standards through waivers. The predecessor of 
the PTC system was an example of that on the BNSF. So, it can 
work, and it can drive innovation, absolutely.
    Senator Fischer. And how effective have they been?
    Mr. Fox. We've made some progress on waivers. And, at the 
same time, going through the waiver process does take time and, 
at times, is pretty frustrating.
    Senator Fischer. OK, thank you.
    Senator Booker.
    Senator Booker. Thank you, Chairwoman.
    Ms. Alt, I'm concerned that you--well, first of all, I'm 
confident that you and I share the goals--the same goals of 
increasing safety on the Nation's highways. And I appreciate 
all your work, and I really appreciate the things your company 
does. But, I'm really just kind of concerned, when I read your 
written testimony. You refer to the legislation I introduced 
with Senator Rubio in it, and I was actually pretty shocked at 
what I read. The Wi-Fi Innovation Act, which is a bipartisan--
in both House and Senate--piece of legislation. Our bill, for 
those who have read it, places timelines and guidelines in 
place for the FCC to test the 5-gigahertz spectrum band, in 
consultation with the Department of Transportation. Some of 
this testing has already happened, and we're excited about 
that. But, our bill simply provides further structure for 
testing alone.
    I can understand why a lot of people in the industry want 
to attack this, as you did in your written testimony, and maybe 
even mislead people, because the industry has been sitting on 
this spectrum since about 1990. But, I want to be very clear 
about what this bill actually does, for you and for others.
    For over a decade, the industry has been working on new 
technology while, at the same time, other technologies--using 
radar and sensors--have evolved without using dedicated 
spectrum. Over a billion dollars of taxpayer dollars has been 
spent on this R&D. And our bill simply asks for testing to see 
whether this limited resource, this precious resource that you 
indicated, can be shared. It is a fact-finding bill, and that 
is all. It's not--if it's not safe to share, I agree, and the 
bill clearly says, there will be no sharing. But, if it can be 
safely shared, now as the other technologies are evolving, I'm 
sure people would agree that it should be.
    So, I'm disappointed in the portrayal of my and Senator 
Rubio's legislation in your testimony. I'm shocked. I've been 
in the Senate for a short time, but I've never seen something 
clearly so misleading in the short time I've been in the 
Senate.
    I've worked closely with stakeholders on this from all 
across the board, from Secretary Fox to Advanced Safety. And as 
supporters of V2V technology, Senator Rubio and I were 
steadfast advocates of highway safety. Safety should come 
first. But, I'm disappointed by these exaggerated attacks.
    And so, the first question I simply have is, did you read 
our legislation, yes or no?
    Ms. Alt. No.
    Senator Booker. OK. So, if you didn't read the legislation, 
but yet you say--``The Wi-Fi Innovation Act would open up 5.9 
gigahertz frequency spectrum to Wi-Fi access,'' that's not 
true. That is a false statement. And that is very frustrating.
    And so, encountering something that--you know, when I was 
Mayor, I used to always say, ``In God we trust, but everybody 
else bring me data, bring me the facts.'' Everybody wants to 
obscure them, but the truth should come through. And so, a 
fact-finding bill that simply looks to understand, what is the 
best way that we can achieve the safety goals that your company 
puts first, that this Senator and I'm sure the whole panel puts 
first? And so, I'm just curious. My last question to you is--I 
believe consumers should have all options on the table, but 
should advocate safety. And I'm wondering if you agree that our 
transportation policy should be actually technology-neutral, 
that should be about what is best to ensure that policy and 
safety don't lag behind the best cutting-edge technology. Do 
you agree with that?
    Ms. Alt. Of course I agree with that.
    Senator Booker. OK. So, again----
    Ms. Alt. And may I respond to some of your comments, then?
    Senator Booker. You certainly may.
    Ms. Alt. So, I think we're on the same page with that. The 
unlicensed Wi-Fi doesn't have a governance structure like a 
licensed frequency does. And the IEEE, which is the Industrial 
Electronic Engineers Group, that is the group that has put two 
proposals forward. They have not come to a conclusion. So, our 
position is that the legislation is simply premature.
    Senator Booker. Ms. Alt, I'm sorry. I can believe your 
testimony, that you submitted to the United States Senate, 
which doesn't say what you just said. It says--it indicates 
that you are against this bill because it would, quote--and I 
quote, ``It would open up 5.9 gigahertz frequency spectrum.'' 
That is not true, and you have--agree with that. What the bill 
does, when you read it, which I hope you will--what the bill is 
simply saying is, hey, let's begin to have a fact-finding 
endeavor that better understands the usage of this spectrum and 
the question--this is a precious asset; this is why I know your 
company wants to protect it--can it possibly be shared without 
infringing on safety? That's all we're looking to do.
    So, attacking the bill on clearly false standings is 
insulting.
    My time's run out.
    Senator Fischer. Thank you, Senator Booker.
    I welcome our Ranking Member today from the Committee. 
Senator Nelson.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Thank you, Madam Chairman.
    Well, what about that, Ms. Alt? What about what Senator 
Booker said?
    Ms. Alt. Well, I--we've come to an agreement that we do not 
want to see that that spectrum is shared with other 
technologies until and unless the governing bodies are sure 
that there is no interference from other technology.
    Senator Nelson. Do you think that technology is practical 
to--basically, the spectrum--do you think the spectrum is 
practical to be used by the automobile industry anytime in the 
near future?
    Ms. Alt. I don't know the answer to that, if it can be 
shared. And that's really the--the position is, can it be 
shared with other technologies? The governing bodies have come 
to a--have not come to a conclusion after putting forward two 
proposals.
    Senator Nelson. There are 4,000 crashes--no. There are 
4,000 people that are killed each year from serious truck 
crashes. How would you suggest technology is used to lessen 
that?
    Ms. Alt. The more that vehicles can speak to each other, 
vehicle-to-vehicle--this is trucks talking to trucks and/or 
trucks talking to cars--the more that they can talk to each 
other to let the other one know, ``Hey, I'm here. You need to 
stop''--that is a technology that would help reduce crashes.
    Senator Nelson. Over the last week, I met with a grieving 
mom whose daughter, on her honeymoon, when the traffic had 
stopped on Interstate 95, and it had literally come to a stop, 
and her new son-in-law and daughter were in the traffic, 
stopped, but a truck, with the driver not having had a lot of 
sleep because of his company requiring a roundtrip trip within 
the state of Florida in the same day of 16 hours, the truck 
driver was, basically, sound asleep. And so, she is a grieving 
mom because of that truck plowing into the back of all of those 
stopped vehicles.
    How would you think technology could address the issue of 
truck driver safety?
    Ms. Alt. Yes, it's a great question. I'm a mom. I would 
grieve with her. Obviously, that's horrible. There are 
electronic onboard recording systems that would record the 
hours of service that the driver can drive. Perhaps if there 
were a technology that would actually shut down the truck if he 
went beyond his hours could be something. But, requiring that 
trucks have these onboard recorders--this technology is 
available, and I believe it's close to being legislated. Those 
are things that can help.
    Senator Nelson. And this particular truck was intrastate, 
not interstate, so what rules that we have up here--for 
example, we don't allow the tandem trucks, in our rules, more 
than 28 feet, but they are allowing two tandem trucks on 
intrastate, inside the state, of 33 feet, which is an issue 
that will be in front of this committee with regard to truck 
safety.
    Let me ask you, Mr. Christensen. You all have accommodated 
the big ships from Asia. And soon, in a year or two, when the 
Panama Canal has completed its expansion, they'll come to the 
East Coast. You want to give any quick pointers what we could 
do that you've learned--lessons learned on handling those huge, 
huge container ships?
    Mr. Christensen. Senator Nelson, thank you for the 
question.
    It is--they are a game changer. But, the term of ``big 
ship'' is a changing term. When I started working in the port, 
about 10 years ago, a big ship was 8,000 TEUs. In 2012, the 
Port of Long Beach started handling 14,000-TEU ships, about the 
same time the new locks in the Panama Canal were going into 
construction, which can accommodate a 13,000-TEU ship. The 
ships we're handling now in the San Pedro Bay ports will not 
fit in the new locks on the new Panama Canal. We are--customers 
at the Port of Long Beach are now ordering 20,000-TEU ships. 
So, it is a--very much a moving target.
    To our colleagues on the East Coast, they're already 
dealing with this with ships that are transiting the Suez 
Canal, and it really has to do with depth of channel to get 
them there, but, once they're there, dealing with how those 
ships are stowed and how those ships are unloaded. And that is 
exactly the focus of our Joint Working Groups, is to figure out 
a whole new way to operate our ports so that we can deal with a 
very large amount of relatively unsorted containers coming 
across the wharf and hitting us in ways that it's never--we've 
never had to deal with before.
    Senator Nelson. The question was, what are the lessons 
learned that you could share with the other ports?
    Mr. Christensen. The lessons, we're still learning, 
Senator. And they really have to do with having adequate 
supplies of chassis, which has to do with an interoperable 
chassis pool. It has to do with working closer with the 
steamship lines and putting more discipline in their stowage of 
the vessel, which has been thrown aside because of the way that 
those vessels are calling on the Asian ports and the way the 
shipping alliances are working. And it has to do with working 
much, much more closely with the communication of data, which 
we're again finding extraordinarily siloed within the supply 
chain, being able to provide a marine terminal operator with 
information more than 2 days before that vessel hits their 
terminal so that they can plan their moves adequately. These 
are all lessons we're learning. I'm not sure that we could tell 
much more to our friends on the East Coast as to how to deal 
with that issue beyond that.
    Senator Nelson. Thanks.
    Senator Fischer. Thank you, Senator Nelson.
    Senator Cantwell.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Madam Chair. And thanks for 
holding this hearing.
    And thank you, to the witnesses.
    Mr. Misener, congratulations on 20 years. It seems just 
like yesterday. And definitely I would say that the 
transformation of delivery of goods and services has been quite 
impressive. We didn't--I didn't hear in your testimony a 
discussion about the drone issue, from a technology 
perspective, but clearly this committee, the larger full 
committee, has had testimony on that, and it certainly is one 
area continuing to move forward on technology and delivering 
the product.
    And, Mr. Christensen, I loved everything that you said, 
except for it would have been great if you would have said it 
was about Seattle-Tacoma instead of L.A.-Long Beach, but still 
very happy to hear your description of the economic opportunity 
before the United States, that we actually can increase the 
cargo shipments, because there is that demand and product to be 
shipped, but that we have to continuously make improvements. 
And this is something we see in Seattle, as well, that, 
somebody estimated, instead of 3 million cargo containers, we 
could do something like six. It's not out of the question. So, 
you described that, you described that that would actually be 
good for longshoremen, even though you're making technology 
investments. So, we're talking about both--you're talking about 
efficiencies.
    OK. So, my question to you and Mr. Misener, anybody else--
Mr. Fox or Ms. Alt--is, even though we're talking about 
technology that helps us move and be more knowledgeable about 
the product, do we still need to make investments in freight 
mobility from a Federal perspective to make sure that, as those 
products are being moved around, that our technology just isn't 
measuring, stuck in congestion, and then making us less 
competitive?
    Mr. Misener. Well, Senator Cantwell, if that's partly to 
me, I appreciate that very much. And thank you for the 
congratulations. I've only been here for 15 of those 20 years, 
but----
    I think we are looking for innovative policies. You've 
introduced a bill with Senator Booker that proposes such 
policies. And we congratulate you for that bill. If anything, 
it could be broader. It could be applied to more than just 
multimodal freight. But, that kind of thinking and that kind of 
communication--Mr. Christensen mentioned communication of data. 
There's also a need for communication among stakeholders. And I 
think that's a big part of your bill, is to get the 
stakeholders talking with one another to figure out innovative 
solutions.
    We also are fans of communication of data, as Mr. 
Christensen mentioned. That's something we're doing with the 
USPS. A big component of our interaction with them is making 
sure that they get forecasts of what we're seeing, what we're 
going to be shipping. And that is particularly important for 
Sunday delivery, so that they can have the--use the most 
efficient routes for driving their trucks and delivering 
parcels on Sunday.
    Senator Cantwell. Well, you're a global business. And Mr. 
Christensen has fixed cost, if you will. So, he mentioned the 
magic words, as far as I'm concerned: Panama and Canada. And 
this is about competition. So, this is about if we're going to 
make the improvements necessary to move our product cost-
effectively or whether that business is going to go to, you 
know, Canada or via the Panama Canal.
    Mr. Christensen. And it's----
    Senator Cantwell. So, are you--do you support further 
freight efforts at the Federal level?
    Mr. Christensen. Yes. And, Senator Cantwell, the--just as 
surely as we're sitting here, as we see international trade 
continue to increase--and we are now at levels that are peaking 
over the pre-recession levels of containerized traffic moving 
through our ports--we will surely be seeing bottlenecks develop 
that are infrastructure-related. As I mentioned in my 
testimony, the strategies are both infrastructure efficiency 
with technology infused along with operational efficiencies. 
And I believe that the legislation you're proposing is timely, 
it's critical to the future of our supply chain optimization, 
to be honest, and we would hope to be able to continue to 
collaborate with you and your team on that, because it is so 
critical to be looking ahead, recognizing that infrastructure 
bottlenecks don't go away a year after you recognize them. It 
takes years and years of focus and funding and policy to make 
them--to solve these bottlenecks as they come up.
    Senator Cantwell. And how do you--your testimony--as I 
said, I really appreciated it, because you describe what the 
future opportunity was, and that it was growth opportunity in 
jobs, as well, not just in automation--how do you think we tell 
this story on a national basis? Is this data that the supply 
chains from other ports have?
    Mr. Christensen. It's data, but it's fractured data. Right 
now, and as I mentioned in the testimony, it's critically 
important that we bring this data in to a--through a reliable 
gateway and make it transparent in public. We have challenges 
ahead of us. We're working on those very, very hard in our 
working groups, in our joint port effort, as Seattle-Tacoma has 
worked very hard on their joint port efforts, as well. And we 
watch and benchmark what's going on up there very closely. So, 
there are opportunities, but there are a lot of--opportunities 
ahead of us, but there's a lot of work to be done.
    Senator Cantwell. Thank you.
    Thank you, Madam Chair.
    Senator Fischer. Thank you, Senator Cantwell.
    Senator Klobuchar.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much, Madam Chair. Thanks 
for holding this hearing.
    Thank you, to the witnesses.
    Mr. Fox, a December 2013 Government Accountability Office 
report found that the FRA faces a lot of challenges--rail 
safety challenges, including the fact that the inspectors only 
have the capacity to inspect less than 1 percent of all 
railroad activities. I come from a state where we are a bit of 
an entry point for oil from Canada, as you know, and oil from 
North Dakota, and then agricultural products from everywhere. 
And so, we've had an enormous increase in rail and a number of 
accompanying derailments.
    And, as you know, the FRA partners with states to oversee 
the inspection of signals, tracks, and mechanical operations. 
And in April, I sent a letter to the Appropriations Committee 
urging increased funding for more rail inspectors. I'd like to 
hear more about what technology BNSF uses to prevent 
derailments. Do you think there's better technology that could 
get us through this?
    Mr. Fox. I think we've shown, as an industry and BNSF, that 
we've leveraged, and continue to leverage technology, and the 
results have clearly been best-ever safety results last year, 
from an employee safety and derailment perspective. Beyond 
that, though, there's opportunity. There's tremendous 
opportunity. Again, I think--as we talk about regulation, part 
of our challenge today is regulation based on a design 
standard. And as we look at--focus on outcomes, again, I think 
that will allow the industry to innovate, innovate with 
technology, with process changes----
    Senator Klobuchar. And how would--like, what kind of 
technology would help with this?
    Mr. Fox. As we look forward, as I mentioned in my 
testimony, I think this drone technology, very early in 
practice, has a real potential. This pathfinder program with 
FAA will move beyond line of sight to where we could utilize 
drones to travel along our private 32,000-mile network for 
hundreds of miles a day, taking high-speed images, high-
definition images of our network, down to a quarter-inch 
accuracy.
    Senator Klobuchar. I see.
    Mr. Fox. Post-processing that data then would help us 
understand exceptions.
    Senator Klobuchar. OK.
    I was just, in the last week, up in International Falls, 
Minnesota. This is not a Burlington Northern issue, where a----
    Mr. Fox. I thought I was in trouble.
    Senator Klobuchar. I know. But, it's where a bridge 
collapsed, a small bridge--a railroad bridge. But, it happens 
to be Ranier, Minnesota. It's the biggest entry point on the 
Canadian border into the U.S., and it's right by International 
Falls, which is the larger town. And so, one of the things we 
talked about, in addition to some issues--this was a Canadian 
national rail issue--and, in addition to the bridge collapsing 
and some issues they've been having with that railroad and the 
workers not allowing us to cross the railroad, the issue was 
that they've been having a lot of grade-crossing issues there. 
I think 8 to 10 hours a day, the trains are in the middle of 
the town, so you can imagine, that's a lot of time, and people 
have to drive two and a half miles around the town.
    So, what I wondered about, even though this is not a 
Burlington Northern issue, is that the Railroad Safety 
Institute at the University of Minnesota is studying train 
delays to more accurately estimate train arrival times at grade 
crossings. And one of the things the mayor of this town said 
is, if they could even have a signal for the people as they're 
deciding whether to take the two-and-a-half-mile route or go 
into the town, about if trains were on the tracks before they 
made that decision, with some kind of technology so that it 
would empower drivers to know what to do, that would be 
helpful.
    But, I just wondered if you had any ideas about that 
crossing issue. I just did an amendment on the rail bill that 
we just passed through on this issue. And it was certainly 
brought home to me this week why I did it. So----
    Mr. Fox. I think, when we talk about Federal funds 
supporting freight projects, grade separations is--clearly 
needs to be--clearly needs to be part of that. And, obviously, 
we've been active in that area, with contributions against 
those grade separations.
    I also think, when we're talking about train headlights at 
the crossing, we also have to be talking about taillights and 
looking at the complete equation.
    But, more Federal funding for grade separations seems to be 
part of the answer.
    Senator Klobuchar. And this sidetracks, is that--that was 
another thing they brought up, is, if the trains could wait 
somewhere else--and I think they're building one--then they 
wouldn't be waiting in the middle of the town.
    Mr. Fox. We all have requirements around how long we can 
block crossings. And obviously, we spend a lot of energy on----
    Senator Klobuchar. Right.
    Mr. Fox.--ensuring that doesn't----
    Senator Klobuchar. No, you've been very----
    Mr. Fox.--happen.
    Senator Klobuchar. I've called about a number of issues, 
which I've really appreciated. So, thank you.
    And just, if I could, Madam Chair, just one more question 
on distracted driving.
    Right now, only one state received our funding for the 
Distracted Driving Grant, which we would really like to have 
change. There's a ton of money sitting there, and we have 
emerging problems, and that's why Senator Hoeven and I have 
sponsored a bill with Senator Booker to actually change some of 
the criteria so we can get that money out to the states for 
education efforts on distracted driving. It's called the 
Improving Driver Safety Act.
    And I thought I'd ask you, Ms. Alt, on what kinds of 
technology--we know that drivers are doing things they 
shouldn't do in the cars. A lot of them have admitted to this 
in surveys. And it's killing people, to the point where we've 
had, you know, 424,000 people injured in 2013, and more than 
3,000 people killed, that we know of, from distracted driving. 
And again, these are individuals making decisions on their own. 
But, are there any technologies, you think, from the car 
companies, that could be helpful with this?
    Ms. Alt. Well, I can speak not from the car companies. The 
group that I'm with, we don't make cars; we make everything but 
cars. I can speak from the heavy-duty truck side, and that is 
where we do have alerts that are built in for a driver, to wake 
them up if their eyes begin to dim. And it's through either 
some sort of vibration in the seat or some loud sound. So, you 
know, it's from a heavy-duty perspective.
    And, of course, then there are lots of regulations, because 
they're commercial drivers, about what they're allowed and not 
allowed to do, regulatorily, behind the wheel.
    Senator Klobuchar. OK. Well, I think, as we know--and I 
appreciate your words on trucks--but, this is an issue for all 
vehicles as we try to figure out if there's anything to create 
shutdown of technology when people are in a car, so they stop 
doing it, or certain--when someone's driving, that they stop 
doing it. Because it's just a growing problem. So----
    All right. Thank you very much.
    Senator Fischer. Thank you, Senator Klobuchar.
    We're going to have a second round of questions, in case 
any other Senators are still trying to get here to the 
Committee hearing.
    And I would like to begin with Mr. Misener. First of all, I 
think, on your video, if you could have had the teddy bear 
delivered to Nebraska or New Jersey, that would have been a 
great ending for the little guy.
    [Laughter.]
    Senator Fischer. But----
    Mr. Misener. We're happy to do cameos, if you would like us 
to be----
    Senator Fischer. Yes.
    Mr. Misener.--hugging a teddy bear at the end of the video.
    Senator Fischer. We can do this. That--we're multi-talented 
up here.
    [Laughter.]
    Senator Fischer. As we look at more efficient logistic 
networks out there, how do you think that that will benefit 
consumers?
    Mr. Misener. So, thank you, Madam Chair, very much.
    That logistics--the improvement of logistics 
infrastructure, along with the more broad transportation 
infrastructure, is very important to consumers because it 
affects how they receive the goods that they purchase online. 
And, on behalf of our customers, we've been trying to improve 
this for, well, oh, at least 20 years. And automation has 
always been a big part of the Amazon solution to this 
challenge. And increasing automation certainly is going to be 
very helpful to making sure that consumers get the goods when 
they need them. But, they have a choice. And that's what we've 
always tried to provide them, as a choice as to delivery 
speeds. We've talked a little bit here about drones. Drones was 
really the only way we figured out how to get goods to 
consumers in less than 30 minutes. But, for longer periods of 
time, there are many alternatives. And we are also offering our 
customers now a slow delivery alternative that gives them 
additional benefits at Amazon if they're willing to accept it 
whenever it comes. And so, if you're ambivalent whether it 
comes in 2 days or 2 weeks, then it's--they can get an 
additional benefit from us. And so, it's all about providing 
our customers the choice. And this obviously applies more 
broadly to American consumers.
    Senator Fischer. OK. Thank you very much.
    Senator Booker.
    Senator Booker. Mr. Misener, how I would love to talk to 
you more about drones. You know, we share a passion for that 
and a desire for the United States of America to catch up to 
the world and other countries that are going ahead of us. It 
has transformative possibilities. But, sadly, I'm coming back 
down to earth to talk about trucks.
    So, your testimony recommends the use of 10 feet longer 
trucks, known as ``Twin 33s.'' The Department of Transportation 
recently came out with a study showing that it takes these 
trucks about 22 feet longer to stop. The length--that's a car 
length and a half. The larger and heavier trucks are greater--
are the greater destruction--where the greater destruction 
occurs when accidents happen. And so, I just have a couple of 
questions on that.
    One is, has your company done an analysis of the impact of 
safety? How will these longer trucks impact the crashes--the 
number of crashes and fatalities?
    Mr. Misener. So, we've been persuaded by the carriers that 
we work with, Senator, that the 33-foot trucks are going to be 
safer because there will be fewer of them on the road, driving 
fewer miles. Any policy choice like this is a balancing of 
factors. I totally get that. And I'm not sure there's any 
particular magic to 33 over, say, 32 or 34. And I'm not sure 
there's any particular magic to the current number, which is 
28. What we're trying to do is find a solution that will 
improve efficiencies, for sure, and that can be done, but, at 
the same time, if we can drive down the number of miles that 
are driven and the number of trucks on the road, that is a 
safety improvement. We are persuaded that the right balance was 
the increase in length without increasing the weight capacity 
or the total weight of the trucks, because the weight, of 
course, is what goes into the inertia and the kinetic energy on 
objects like this. And so, it's a--weight times velocity is the 
inertia, not the length of the truck.
    Senator Booker. And I appreciate that. There are a lot of 
things to balance. Safety should be the first. But, it's also 
the impact on the infrastructure, as well. And so, with those--
those heavier trucks, would they tear up more of our local 
roads?
    Mr. Misener. We don't support heavier trucks. To be clear, 
our support is for a longer truck. It's not increasing the 
weight limits at all. And so, increasing the length of the 
truck should not affect the infrastructure adversely; in fact, 
it can help it, because--well, going over a bridge, for 
example, the weight is less concentrated and, therefore, easier 
on the bridge.
    Senator Booker. I appreciate that.
    And then, just last, really quickly, the--another balancing 
act is, you want greater and greater safety, but you also want 
to see what the--put the least necessary burden on businesses 
and how they operate. And so, the big issue of minimum 
insurance is one that I have some concerns about, and I'd love 
for you to just give me your thoughts.
    With the truck size and weight, we realize that trucks are 
getting bigger, causing bigger accidents, as well, over the 
last 20, 30 years. And the minimum insurance has not been 
raised since the 1980s. And so, I'm wondering do you think that 
there is a needed minimum insurance level increase, or at least 
pegging it somehow to--that is elevated regularly on an ongoing 
basis?
    Mr. Misener. Well, Senator, it seems very reasonable to me. 
I mean, we--the carriers that we use are the ones who are going 
to be directly affected by that. And so, the carriers that we 
work with are reputable ones. We certainly would not want our 
products traveling, you know, over problematic or difficult 
carriers. And so, I'm not sure I have a direct answer for you, 
simply because that wouldn't be directly affecting us at this 
point.
    Senator Booker. OK. Thank you very much.
    Mr. Misener. Thank you, Senator.
    Senator Booker. You can meet me out by the Capitol with a 
drone, if you'd like.
    Mr. Misener. I'll be there.
    Senator Booker. All right.
    Senator Fischer. Thank you, Senator Booker.
    I would like to announce that the hearing record will 
remain open for 2 weeks, and, during that time, Senators are 
asked to submit any questions for the record. Upon receipt, the 
witnesses are requested to submit their written answers to the 
Committee as soon as possible.
    I would like to thank the witnesses for being here today, 
and I thank my colleagues who attended the hearing. Thank you 
all.
    We are adjourned.
    [Whereupon, at 2:40 p.m., the hearing was adjourned.]

                            A P P E N D I X

     Response to Written Questions Submitted by Hon. Roy Blunt to 
                               Susan Alt
    Question 1. Our society and economy rely on technology, and it's 
enabled tremendous economic growth and efficiencies. It's exciting to 
watch these innovations move from the virtual world to the real, 
physical world. However, advances in technology and their widespread 
adoption also raise potential new dangers. The increasing use of 
automation and reliance on hardware and software in transportation 
networks raises serious questions. To what degree are rail, trucking, 
marine cargo, and others in the transportation sector accounting for 
the security of new systems they adopt?
    Answer. I can only speak for Volvo Group, but I would say we are 
accounting for the security of new technology systems to a very high 
degree. We understand that cybersecurity is absolutely critical to the 
success of new technologies in the transportation sector that connect 
vehicle systems internally to each other and externally to other 
vehicles, infrastructure, and the cloud. If the public does not trust 
the robustness of a new technology, especially one being applied to an 
area as critical to public safety as transportation, it will not be 
embraced. At Volvo Group, safety is one of our three core values and is 
built into the design of our trucks from the start. As computer and 
communications technologies begin to play a larger role in the design 
and functionality of our trucks, cybersecurity is an absolutely 
necessary element to ensure overall vehicle safety.

    Question 2. There are a number of Information Sharing and Analysis 
Centers (ISACs) that provide their members with actionable and relevant 
information for cyber risk mitigation, incident response, and 
information sharing.
    Currently we have an Aviation ISAC, a Maritime Security ISAC, a 
Surface Transportation ISAC, and a Public Transit ISAC. How would you 
rate the overall communication and coordination within and between 
these ISACs, as well as others outside the transportation sector who 
may have relevant expertise?
    Answer. In addition to the ISACs mentioned above, the automobile 
industry recently formed an auto cybersecurity ISAC composed of members 
of both the Auto Alliance and Global Automakers industry groups. While 
focused on passenger automobiles, this may be an important venue for 
the trucking industry to engage as well in communication and 
coordination around vehicle cybersecurity issues.
    We have also talked to our industry trade groups, and according to 
the American Public Transportation Association (APTA), the 
Transportation sector is closely connected and the individual ISACs are 
part of and engaged with each other and the National Council of ISACs 
(NCI). The NCI includes ISACs from the critical sectors who meet on a 
regular basis to share intelligence and prevent threats. The surface 
transportation ISACs (Surface, Public Transit, Over the Road Bus) 
utilize many of the same analysts who immediately analyze and 
disseminate cybersecurity information and threat intelligence with 
their members including the NCI and interrelated sectors, ISACs.

    Question 3. In your testimony, you said that states are developing 
different, and sometimes inconsistent rules and regulations to promote 
autonomous vehicle testing. How many states have produced different 
rules and regulations related to autonomous vehicles, and to what 
degree are these different rules hindering manufacturers?
    Answer. In response to public interest over autonomous vehicle 
testing and in anticipation of the proliferation of this technology, 
many states have already moved to address autonomous vehicles through 
legislation, regulation, or executive order. Thus, we (those companies 
developing autonomous vehicles or autonomous vehicle technology) work 
within an ever growing patchwork of definitions, allowable vehicle 
standards and requirements in order to develop and bring technologies 
to the U.S. market as a whole.
    Without the standardization of regulations in the areas of testing 
and deployment of autonomous vehicles, as well as establishing 
liability issues and data collection allowances, it will add cost, 
time, and complexity to the development process, slowing the 
introduction of technology that can help solving some of the most 
intractable transportation infrastructure problems of our generation.
    According to the National Conference of State Legislatures, six 
states (California, Nevada, Michigan, Florida, North Dakota, and 
Tennessee) and the District of Columbia have passed one or more 
specific laws addressing autonomous vehicle technology. Sixteen 
additional states are currently considering legislation.
    In addition to laws, regulations, and executive orders dealing with 
the broad concept of vehicle automation, there is additional public 
policy complexity and uncertainty around supporting technologies, such 
as V2V and V2I communications, and specific applications of automated 
driving, such as vehicle platooning.

    Question 4. Can you elaborate whether there's potential to increase 
safety on our Nation's roads and interstates if we have a single, 
consistent national standard for autonomous vehicle testing?
    Answer. I believe the public stands to benefit from streamlining 
the regulatory environment and making it more receptive to new ways of 
accomplishing longstanding goals such as transportation safety. As 
such, a single, consistent national standard for autonomous vehicle 
testing would foster innovation and smooth the pathway to market in a 
much greater way than the current patchwork of state policy approaches.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Roy Blunt to 
                            Paul E. Misener
    Question 1. As you discussed the important role of automation 
helping companies ship more efficiently, is there also a growing role 
for the Internet of Things (IoT) to help improve the transportation 
ecosystem, for example with autonomous vehicles and fleet management?
    If so, what kinds of roles are you seeing now and do you envision 
in the future? Specifically, should Congress look to leverage the 
benefits of IoT as we develop our next highway bill?
    Answer. Technological advancements that help create safe, real-time 
distribution operations, including those that deploy highly automated 
ground and airborne infrastructures, will have profound impacts for our 
entire transportation system. Specific to Amazon, our future Prime Air 
service will deliver packages five pounds and less to customers in 30 
minutes or less using small unmanned aircraft systems (UAS), or drones. 
Flying below 500 feet, and generally above 200 feet except for takeoff 
and landing, and weighing less than 55 pounds total, Prime Air UAS will 
take advantage of sophisticated ``sense and avoid'' technology, as well 
as a high degree of automation, to ensure safe operations, including at 
distances of 10 miles or more, well beyond visual line of sight.
    Once operational, Prime Air will increase the overall safety and 
efficiency of the current ground transportation system by allowing 
people to skip the quick trip to the store or by reducing package 
deliveries by truck or car, which will ease congestion. For the same 
reasons, Prime Air will reduce buyers' environmental footprint. If a 
consumer wants a small item quickly, instead of driving to go shopping 
or causing delivery vehicles to come to her home or office, a small, 
electrically-powered UAS will make the trip faster and more efficiently 
and cleanly.
    There is absolutely a growing role for the Internet of things in 
all modes of transportation, and Congress should encourage Federal 
agencies to work collaboratively with industry to ensure technological 
advancements are not unnecessarily impeded by regulations, which were 
often written around an onboard human operator. Government agencies 
should take a performance-based approach to regulating rapidly evolving 
technologies, setting a target level of safety and allowing industry to 
innovate to meet that requirement.

    Question 2. Our Society and economy rely on technology, and it's 
enabled tremendous economic growth and efficiencies. It's exciting to 
watch these innovations move from the virtual world to the real, 
physical world.
    However, advances in technology and their widespread adoption also 
raise potential new dangers. The increasing use of automation and 
reliance on hardware and software in transportation networks raises 
serious questions.
    To what degree are rail, trucking, marine cargo, and others in the 
transportation sector accounting for the security of new systems they 
adopt?
    Answer. At Amazon, our guiding principle is customer trust. We use 
information in a responsible, appropriate, and secure manner to 
innovate and improve the customer experience, and we are constantly 
striving to exceed our already high levels of software and hardware 
reliability, as well as guard against cyber intrusion. In order to 
ensure the continued safety and security of the transportation space, 
we need willing government agencies to work with industry to better 
understand rapidly developing technologies and how they will connect 
into our current transportation system. For example, we need the 
Federal Aviation Administration and the National Aeronautics and Space 
Administration to work expeditiously with industry to create an 
Unmanned Traffic Management (UTM) system to safely coordinate the 
activities of the increasing numbers of small drones flying at low 
altitudes. Much of the success of UTM will rely on establishing the 
identity of vehicles and on secure reliable information networks. This 
will ensure the safety and security of the airspace, while not impeding 
existing manned aircraft operations.

    Question 3. There are a number of Information Sharing and Analysis 
Centers (ISACs) that provide their members with actionable and relevant 
information for cyber risk mitigation, incident response, and 
information sharing.
    Currently, we have an Aviation ISAC, a Marine Security ISAC, a 
Surface Transportation ISAC, and a Public Transit ISAC.
    How would you rate the overall communication and coordination 
within and between these ISACs, as well as others outside the 
transportation sector who may have relevant expertise?
    Answer. Amazon has not traditionally been considered part of any of 
the transportation sector ISACs, although we would welcome an 
opportunity to participate. For the vast majority of our deliveries, we 
rely on our carriers, including the U.S. Postal Service.
    Specific to Amazon Prime Air, we have met with the U.S. Department 
of Homeland Security (DHS), and other Federal agencies, and welcome 
future collaboration on drone security issues; however, rather than the 
ad hoc manner in which meetings between DHS and industry have occurred 
in the past, we believe DHS should stand up a formal committee under 
the Federal Advisory Committee Act for drone industry input.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Steve Daines to 
                            Paul E. Misener
    Question. Mr. Misener, many people in my home state of Montana as 
well as many around the Nation appreciate the products and services 
provided by Amazon. It enables people in rural communities to access a 
wider spectrum of products that may not be available in their immediate 
markets and have them delivered the next day. In your testimony, you 
discuss Amazon's pursuit of delivery via drones. As someone who spent 
12 years in cloud computing, I am an advocate for innovation. I also 
deeply appreciate privacy concerns and safety. Drones have the ability 
to collect massive amounts of data as they fly. I have asked the 
Federal Aviation Administration (FAA) similar questions. As Amazon 
considers utilizing drone technologies, how will it ensure the privacy 
and safety of customers and innocent bystanders?
    Answer. At Amazon, our guiding principle for privacy is customer 
trust. We use information in a responsible, appropriate, and secure 
manner to innovate and improve the customer experience, and we know we 
must get privacy right to meet our customers' high expectations of us. 
We will use this same privacy-by-design approach for Amazon Prime Air, 
our future drone package delivery service.
    Consumer privacy is an area in which the U.S. approach to drone 
regulation already is particularly strong. We recognize that drone 
technology could cause privacy infringement if commercial or private 
use is not undertaken in a sensible, privacy-conscious manner, so we 
welcome and support the National Telecommunications and Information 
Administration (NTIA's) leadership in developing best practices in its 
current multi-stakeholder process.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Roy Blunt to 
                             Gregory C. Fox
    Question 1. Our society and economy rely on technology, and it's 
enabled tremendous economic growth and efficiencies. It's exciting to 
watch these innovations move from the virtual world to the real, 
physical world.
    However, advances in technology and their widespread adoption also 
raise potential new dangers. The increasing use of automation and 
reliance on hardware and software in transportation networks raises 
serious questions.
    To what degree are rail, trucking, marine cargo, and others in the 
transportation sector accounting for the security of new systems they 
adopt?
    Answer. At BNSF Railway, security is key to our overall risk 
mitigation efforts that support safe rail operations. The various 
technologies deployed to operate BNSF Railway--hardware, software and 
the networks they connect to--require deliberate focus to avoid or 
mitigate security risks. We adjust as needed from an offensive and 
defensive security posture as new risks surface in deployed information 
systems by working with our vendors and industry partners to ensure our 
security posture meets industry standard best practices and is capable 
of protecting our complex, distributed network. We continue to invest 
in and strengthen our security posture via equipment, software, and 
skills. The complexities lie in the myriad of technologies of various 
ages and capabilities (hardware, software and networks) developed in 
house and from vendors that are needed to function as a given system 
and our business need to ensure connectivity both internal to BNSF and 
at times with external partners via the Internet.
    With regard to new systems that we adopt, if developed in house, 
the code is tested for potential risk. We leverage third party products 
and internal processes to test software looking for those high risk 
vulnerabilities and if found to exist, will require the application 
developer to remedy the code prior to moving said code into production. 
We also leverage various technology to protect our system's data, 
manage accessibility and system software changes as well as 24/7 
monitoring. For third party hosted software such as cloud, we perform a 
security assessment during the product evaluation period. We also 
routinely audit processes, system changes and accessibility routinely.

    Question 2. There are a number of Information Sharing and Analysis 
Centers (ISACs) that provide their members with actionable and relevant 
information for cyber risk mitigation, incident response, and 
information sharing.
    Currently we have an Aviation ISAC, a Maritime Security ISAC, a 
Surface Transportation ISAC, and a Public Transit ISAC.
    How would you rate the overall communication and coordination 
within and between these ISACs, as well as others outside the 
transportation sector who may have relevant expertise?
    Answer. I would rate the communication and coordination within 
modal Information Sharing and Analysis Centers (ISACs) as very good. We 
also partner with the AAR and other government agencies for information 
sharing as well as leveraging several third parties in the cyber 
industry. The process has proven to be invaluable as we are able to 
understand the current vulnerabilities and at times provide each other 
with potential forewarning of suspected issues as they surface. ISACs 
also provide the platform for additional opportunities to share best 
practices that may have worked well or not worked as intended which 
helps all modes reach a desired result more expeditiously. In these 
cyber instances, time can be of the essence.
                                 ______
                                 
    Response to Written Question submitted by Hon. Steve Daines to 
                             Gregory C. Fox
    Question. Mr. Fox, Burlington Northern Santa Fe (BNSF) has over 
1,900 miles of railroad across my home state of Montana. They do a 
great service in transporting Montana's agricultural and energy 
products to markets across the Nation. In your testimony, you discuss 
the use of drones for carrying out inspections.
    I commend the innovative efforts to increase safety. How will this 
continue to be developed and how is BNSF addressing personal privacy of 
unintended data collected?
    Answer. BNSF has started to deploy Unmanned Aircraft Systems 
(UAS)--or drones--for supplemental visual track and bridge inspections 
in a variety of conditions. Earlier this year, we were one of three 
companies awarded Pathfinder Program status by the Federal Aviation 
Administration (FAA) which will permit a focus on beyond-line of sight 
operations for extended track integrity flights. The Pathfinder Program 
concept of operations are still being developed and we will continue to 
work with the FAA on this effort.
    BNSF's interest in the use of UAS has been driven in full by the 
potential safety applications and benefits we hope to demonstrate 
through our partnership with the FAA. We have begun to identify 
numerous opportunities to supplement our existing track and 
infrastructure inspections. In regards to track integrity, this 
technology can help to assess safety concerns that could cause a 
derailment, such as landslides or washouts, and help BNSF understand 
the track conditions for some of our more remote assets.
    BNSF's UAS program operates under the Section 333 Exemption Number 
11206 which BNSF was granted by the FAA and only allows us to operate 
on or above BNSF owned property. In order to operate on other property 
prior approval from surrounding land owners must be secured and 
includes data collection protections. BNSF further interprets this 
exemption to mean that BNSF cannot collect data from assets not owned 
by BNSF.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Roy Blunt to 
                         Michael R. Christensen
Cybersecurity
    Question 1. Our society and economy rely on technology, and it's 
enabled tremendous economic growth and efficiencies. It's exciting to 
watch these innovations move from the virtual world to the real, 
physical world.
    However, advances in technology and their widespread adoption also 
raise potential new dangers. The increasing use of automation and 
reliance on hardware and software in transportation networks raises 
serious questions.
    To what degree are rail, trucking, marine cargo, and others in the 
transportation sector accounting for the security of new systems they 
adopt?
    Answer. Each segment of the marine transportation supply chain is 
taking cybersecurity very seriously. At the Port of Long Beach, our 
cybersecurity security teams are pouring significant resources into 
continuously improving our program and governance. This includes 
increased security, and monitoring for applications, information, and 
networks. We currently have business continuity plans in place, and 
emphasize training for end users.
    Ocean carriers, marine terminal operators, and railroads are 
likewise continuously reviewing and strengthening their own 
cybersecurity technologies and capabilities. Particular attention is 
being placed on the new automated container terminals to be sure they 
are protected from intrusion.

    Question 2. There are a number of Information Sharing and Analysis 
Centers (ISACs) that provide their members with actionable and relevant 
information for cyber risk mitigation, incident response, and 
information sharing.
    Currently we have an Aviation ISAC, a Maritime Security ISAC, a 
Surface Transportation ISAC, and a Public Transit ISAC.
    How would you rate the overall communication and coordination 
within and between these ISACs, as well as others outside the 
transportation sector who may have relevant expertise?
    Answer. Given that ISAC has only been in existence for 18 years, 
cybercrime has a head start. The ISACs have created a nationwide 
collaborative platform that did not exist before. So there has been a 
lot of progress in the way of information sharing, and threat 
mitigation, good and better practices. Cyber threats evolve along with 
technology, so there must be an asserted effort and dedication to 
continuous improvement.

                                  [all]
</pre></body></html>
